   IG’s Message for the Secretary


                                                           UNITED STATES DEPARTMENT OF COMMERCE
                                                           The Inspector General
                                                           Washington, D.C. 20230

   October 31, 1999

   The Honorable William M. Daley
   Secretary of Commerce
   Washington, DC 20230

   Mr. Secretary:

   I am pleased to provide you with the Office of Inspector General’s semiannual report to the Congress for
   the second half of fiscal year 1999. Section 5 of the Inspector General Act requires that you transmit this
   report, with any comments you may wish to add, to the appropriate congressional committees within
   30 days of its receipt.

   This is the first semiannual report that I will be submitting to you and the Congress since I was sworn in
   as Inspector General in July. I appreciate the support you provided during my tenure as Acting IG, and I
   look forward to continuing to work with you to improve departmental operations. I believe that the efforts
   described in this report demonstrate the value of the cooperative, productive relationships that we have
   tried to foster between OIG officials and your Executive Management Team.

   The first section of the enclosed report discusses what we have identified as the major challenges facing
   the Department. For each challenge, we highlight the progress made in the past six months, as well as
   further actions that we believe need to be taken. As you might expect, we have focused considerable time
   and effort on monitoring the Department’s efforts to address three of the most visible and immediate
   challenges—improving the accuracy and controlling the cost of the 2000 Decennial Census, addressing the
   Y2K problem, and improving financial management. Much progress has been made in these areas, but
   continued oversight is essential.

   This report also describes the progress made to address other major challenges, most notably the chal-
   lenges of expanding private sector participation in NOAA’s marine and aeronautical data gathering,
   implementing the Advanced Weather Interactive Processing System, and resolving issues relating to
   NTIS’s mission and financial viability.

                                                      Sincerely,



                                                      Johnnie E. Frazier

   Enclosure


Commerce OIG Semiannual Report
September 1999
                                                                                                                 i
                        Table of Contents

     IG’S MESSAGE FOR THE CONGRESS ................................................................... 1
          Foreword .............................................................................................................. 1
          Major Challenges for the Department ..................................................................... 2
              Increase the accuracy and control the cost of the 2000 Decennial Census ......... 2
              Obtain an unqualified opinion on all of the Department’s consolidated
                  financial statements ................................................................................... 3
              Address Commerce’s year 2000 computer problem .......................................... 4
              Successfully implement NWS’s Advanced Weather Interactive
                  Processing System .................................................................................... 5
              Successfully implement a Department-wide financial management system ......... 6
              Evaluate NTIS’s mission and financial viability ................................................. 7
              Expand private sector participation in NOAA’s marine and aeronautical
                  data gathering ........................................................................................... 8
              Manage PTO’s space requirements and lease costs .......................................... 9
              Maximize competition in the Department’s financial assistance programs ........ 10
              Continue to improve the Department’s strategic planning and performance
                  measurement in accordance with GPRA .................................................. 11
          Other Issues of Concern ...................................................................................... 13
          Resolution and Follow-Up ................................................................................... 15

     DEPARTMENT OF COMMERCE ORGANIZATION CHART ................................. 16

     AGENCY OVERVIEWS ............................................................................................ 17
        Bureau of Export Administration .......................................................................... 17
        Economic Development Administration ................................................................ 21
        Economics and Statistics Administration ............................................................... 24
        International Trade Administration ....................................................................... 33
        National Oceanic and Atmospheric Administration ................................................ 45
        National Telecommunications and Information Administration .............................. 57
        Patent and Trademark Office ............................................................................... 58
        Technology Administration .................................................................................. 63
        Departmental Management .................................................................................. 66

     REPORTING REQUIREMENTS............................................................................... 71

     STATISTICAL HIGHLIGHTS .................................................................................... 75

     TABLES AND APPENDIXES ................................................................................... 76

     DEFINITIONS OF TYPES OF OIG REVIEWS AND
     FINANCIAL STATEMENTS AUDIT TERMS ........................................................... 85

     GLOSSARY OF ABBREVIATIONS ......................................................................... 86

     OIG ORGANIZATION CHART AND POINTS OF CONTACT ..... (Inside Back Cover)

                                                                                      Commerce OIG Semiannual Report
ii                                                                                                   September 1999
IG’s Message for the Congress

                                          FOREWORD
     We continue to devote a large portion of our resources to exploring what we have identified as the
 major challenges facing the Department. A primary focus during the past six months has been on three of
 these challenges—the 2000 Decennial Census, the Y2K problem, and financial management. In addition, we
 examined a broad array of important Commerce programs, including the Department’s efforts to control the
 export of sensitive technologies and munitions.

      We conducted four reviews of key aspects of the decennial during this semiannual period. One
 examined the operation during the Census Dress Rehearsal of the quality check survey, which will be used
 to independently measure the quality of the direct count of the population. Another looked at multiple
 response resolution, a process designed to help ensure that no one is counted more than once. A third
 considered whether the Census Bureau had done all it could to ensure the effectiveness of its public
 awareness campaign. And a fourth assessed the bureau’s plans for archiving decennial data and disposing of
 questionnaires to ensure that sensitive information will be protected. The bureau has taken prompt action to
 address the concerns and recommendations discussed in our reports.

      In addition, as part of an ongoing review of efforts by the Department and its bureaus to ensure that
 their critical computer systems are Y2K compliant, we completed our examination of the Y2K compliance
 activities of two Commerce operating units—the Patent and Trademark Office and NOAA’s National
 Environmental Satellite, Data, and Information Service. Overall, both agencies’ systems were ready to
 handle the change to the year 2000, but we made recommendations concerning retesting and contingency
 planning designed to further decrease the risk of service disruptions. We will also be reporting in the near
 future on the Y2K status of several other important Commerce agencies, including the Census Bureau and
 the National Weather Service.

     Although our audits of the Department’s FY 1999 financial statements will not be completed until next
 March, we have worked with departmental and bureau managers on an ongoing basis to improve financial
 management and reporting. For example, we have participated in several forums on financial management
 issues and have met regularly with departmental financial managers to discuss issues of mutual concern.

     Several major OIG reviews completed during this period looked at export-related programs managed by
 BXA and ITA. For example, at the request of the Chairman of the Senate Committee on Governmental
 Affairs, we and five other OIGs conducted an interagency review of the export licensing process for dual-
 use commodities and munitions, and testified on the review results. In keeping with the intent of the require-
 ments of the Omnibus Trade Act of 1988, we also continued to examine U.S. and Foreign Commercial
 Service overseas operations, reporting on our reviews of the posts in Brazil, China, and South Africa. In
 addition, the Inspector General testified on the progress being made in implementing the U.S. Export
 Assistance Centers as “one-stop shops” providing a wide range of federal assistance to U.S. exporters.

     We plan to continue our work on these critical Commerce issues in order to provide departmental and
 congressional decision-makers with the sound, objective information and recommendations they need to
 take decisive action to meet the major challenges facing the Department.



 Commerce OIG Semiannual Report
 September 1999
                                                                                                                  1
                                      IG’s Message for the Congress


                                                                   MAJOR CHALLENGES
                                                                  FOR THE DEPARTMENT
Major Challenges for the Department




                                           The Department of Commerce, with its many            on various aspects of the Census Bureau’s decennial
                                      important and diverse programs and missions, is           preparation efforts, and additional reviews are
                                      faced with its share of problems, concerns, and           underway. We have made numerous recommenda-
                                      difficult issues that we view as key management           tions aimed at helping to improve the accuracy of
                                      challenges. This section highlights what we consider      the 2000 census and control its cost. Likewise, we
                                      to be the major challenges facing the Department.         have conducted audits and inspections of other
                                                                                                Census Bureau activities and operations (such as
                                          We have identified these issues as major              financial management systems, interagency
                                      challenges because of their importance to the             agreements, and Y2K compliance efforts) that may
                                      Department’s mission or the nation’s well-being,          indirectly affect the bureau’s ability to conduct the
                                      their complexity, their sizable expenditures, or their    decennial efficiently and effectively. In all instances,
                                      need for management improvements. By addressing           we are actively monitoring the bureau’s efforts to
                                      these challenges, the Department and the Congress         address the recommendations made in our reports.
                                      can improve program management, eliminate serious
                                      operational problems, decrease vulnerability to fraud          In the last issue of our semiannual report, we
                                      and waste, and achieve significant cost savings.          reported on a number of problems with bureau
                                                                                                processes and operations, some of which, if not
                                      Increase the Accuracy and                                 corrected, could have serious implications for the
                                                                                                decennial. For example, our review of the 1998
                                      Control the Cost of the
                                                                                                dress rehearsal operation of a pre-production version
                                      2000 Decennial Census                                     of DCS 2000, the data capture system being devel-
                                                                                                oped for the decennial census, disclosed that the
                                           The decennial census is an enormous and              system experienced serious problems in processing
                                      complex task—certainly one of the most difficult          dress rehearsal forms as a result of inadequate
                                      that the federal government has to undertake. The         control of system requirements and insufficient
                                      accuracy of the data produced by the decennial is         testing (see March 1999 issue, page 30).
                                      critical because it is the basis for apportioning seats
                                      in the House of Representatives and is used by state           Also, our review of the bureau’s use of inter-
                                      legislatures for redistricting purposes. The data is      agency and other special agreements identified the
                                      also used to distribute billions of dollars of federal    need for significant improvements in the agreements
                                      funds to state and local governments. The Depart-         themselves, as well as in the policies and procedures
                                      ment recognizes the challenges presented by the           for preparing, reviewing, and tracking them (see
                                      2000 Decennial Census and is clearly providing            March 1999 issue, page 32). In addition, our review
                                      increased oversight and management support to this        of a Census Bureau regional office’s use of
                                      important undertaking.                                    bankcards called for strengthening internal controls
                                                                                                over bankcard purchases (see March 1999 issue,
                                          Given the complexity and importance of the            page 34). We are pleased to report that in all three
                                      2000 decennial, we continue to make oversight of          instances, the bureau has been working hard to
                                      decennial planning one of our top priorities. We have     address our concerns, and that many corrective
                                      already issued nearly 20 audit and inspection reports     actions have already been taken.


                                                                                                                     Commerce OIG Semiannual Report
                                       2                                                                                            September 1999
                                                        IG’s Message for the Congress


     In several reviews completed during this semi-     For example, the bureau originally planned to
annual period, we expressed a number of additional      integrate statistical methods into the decennial
concerns that need to be addressed in preparing for     census design to produce a single-number count,




                                                                                                                  Major Challenges for the Department
the 2000 decennial. Specifically:                       rather than two sets of totals, as was done in 1990.
                                                        However, in November 1998, the administration
l       Our review of the 1998 dress rehearsal test     agreed that the bureau would plan for both a
        of the quality check survey identified the      sampling and a non-sampling census while awaiting
        need for improvements prior to the              a Supreme Court ruling on the legality of using
        decennial (see page 24).                        sampling techniques as part of the decennial census
                                                        methodology. On January 25, 1999, the Court ruled
l       Our review of the bureau’s planned              that, according to the Census Act of 1986, statistical
        approach for ensuring that multiple             sampling techniques cannot be used for apportion-
        responses to the decennial received from the    ment. But the bureau still intends to provide a
        same housing units are resolved correctly       statistically adjusted number for non-apportionment
        and on schedule identified the need for         purposes, believing that the adjusted count is more
        modifications to ensure accurate, timely        accurate.
        processing (see page 26).
                                                        Obtain an Unqualified Opinion
l       Our review of the bureau’s plans for
                                                        on All of the Department’s
        archiving decennial data and disposing of
        questionnaires identified the need for the      Consolidated Financial Statements
        bureau to select the method it proposes to
        use to archive the decennial data and to             The Chief Financial Officers Act of 1990, the
        finalize its procedures for disposing of the    Government Performance and Results Act of 1993,
        questionnaires (see page 30).                   the Government Management Reform Act of 1994,
                                                        and the Federal Financial Management Improvement
    Of equal note, our work revealed that a number      Act of 1996 were designed to improve the financial
of activities critical to the decennial are working     management practices of federal agencies. The
well. Foremost, in our recent audit of the bureau’s     statutes require annual financial statements audits
public awareness campaign, we found that the paid       that present an entity’s financial position and results
advertising campaign has been planned and, in its       of operations and provide other information needed
early stages, implemented in a manner that is           for the Congress, agency executives, and the public
meeting its program objectives. In addition, the        to assess management’s performance.
partnership program—the other component of the
public awareness campaign—has been effective in              The Department received an unqualified opinion
establishing relationships with state and local         on its Consolidated Balance Sheet as of September
governments and other organizations essential to        30, 1998. However, because the Department had
conducting an accurate census. Together, these two      received a disclaimer of opinion on its FY 1997
approaches are being aggressively pursued to            financial statements, we were unable to express an
increase the mail response rate and reduce the          opinion on its Consolidating Statements of Net Cost
undercount (see page 28).                               and Changes in Net Position and Combined
                                                        Statements of Budgetary Resources and Financing
     The Department continues to face challenges as     for the year ended September 30, 1998 (see March
it grapples with the logistical, technical, and other   1999 issue, page 76). In addition, individual
issues involved in conducting the 2000 decennial.       disclaimers on these FY 1998 financial statements of

Commerce OIG Semiannual Report
September 1999
                                                                                                           3
                                      IG’s Message for the Congress


                                      NOAA, the Bureau of the Census, and the Franchise            ment systems, improving financial management, and
                                      Fund, along with the fact that ITA’s FY 1998                 achieving an unqualified opinion on all of its
Major Challenges for the Department




                                      statements could not be audited, resulted in the             financial statements.
                                      disclaimer on the Department’s other FY 1998
                                      consolidated financial statements.                                Obtaining an unqualified audit opinion on all of
                                                                                                   the Department’s FY 1999 consolidated financial
                                           Although the Department and several bureaus             statements is still a major challenge. But, as progress
                                      received improved audit opinions on their FY 1998            is being made, it is also becoming increasingly clear
                                      financial statements, it will not be easy for the            that the extensive cooperation among the Depart-
                                      Department to obtain an unqualified opinion on all           ment, the bureaus, the OIG, and the OIG’s contrac-
                                      of its FY 1999 financial statements. Further                 tors is going a long way toward further reducing the
                                      improvements are necessary.                                  number of material weaknesses and bringing the
                                                                                                   Department closer to achieving an unqualified
                                           NOAA and the Census Bureau, for example,                opinion.
                                      face some special challenges and must be proactive
                                      in identifying and resolving the potential impedi-                Our audits of the Department’s FY 1999
                                      ments to the preparation and audit of their FY 1999          financial statements will be completed during the
                                      financial statements. In addition, the FY 1999 audit         next semiannual period. Nevertheless, we have
                                      of ITA’s financial statements will constitute, in            worked with departmental and bureau managers
                                      essence, a first-year audit. It is typically difficult for   during this period to improve financial management
                                      federal organizations to receive an opinion on all           and reporting. For example, we have participated in
                                      financial statements in the first year. Until these          such ongoing forums as the GPRA Task Force and
                                      bureaus receive other than disclaimers on their              the Accountability Report Committee. We have also
                                      remaining statements, it is unlikely that the Depart-        met regularly with the Department’s CFO Office to
                                      ment will receive an unqualified opinion on all of its       discuss issues that affect the consolidated financial
                                      consolidated financial statements.                           statements and to provide coordinated comments to
                                                                                                   OMB on audit and financial reporting regulations.
                                          It is important to highlight, however, the
                                      progress that has been made in addressing many of            Address Commerce’s Year 2000
                                      the problems, weaknesses, and conditions that have
                                                                                                   Computer Problem
                                      undermined the reliability of some bureaus’ financial
                                      management systems and precluded unqualified
                                                                                                        As the century draws to a close, we continue to
                                      opinions on their financial statements. This is
                                                                                                   play an important role in monitoring and highlighting
                                      probably most apparent in the decrease in the
                                                                                                   key issues related to addressing the Y2K problem in
                                      number of “material weaknesses” over the past two
                                                                                                   Commerce computer systems and in recommending
                                      years—from 37 in FY 1996 to only 12 in FY 1998.
                                                                                                   actions to mitigate the risk of Y2K failures. In our
                                                                                                   last issue (see March 1999 issue, page 78), we
                                           Material weaknesses represent serious
                                                                                                   discussed the results of our inspection of the
                                      conditions where the design or operation of an
                                                                                                   Department’s efforts to improve the accuracy of its
                                      internal control component does not minimize the
                                                                                                   reporting of its systems’ Y2K compliance status. In
                                      risk that errors, fraud, or noncompliance in material
                                                                                                   this issue, we discuss the findings of some of our
                                      amounts may occur and not be readily detected. The
                                                                                                   specific evaluations of the efforts made by individual
                                      substantial progress made in reducing the number of
                                                                                                   bureaus to ensure that their critical automated
                                      material weaknesses reflects the Department’s
                                                                                                   systems are, in fact, Y2K compliant.
                                      commitment to establishing sound financial manage-

                                                                                                                        Commerce OIG Semiannual Report
                                       4                                                                                               September 1999
                                                        IG’s Message for the Congress


     Our review of the National Environmental                The remaining challenge is for Commerce
Satellite, Data, and Information Service’s process      managers to ensure that the needed attention is
for renovating selected critical systems concluded      directed to (1) testing and improving BCCPs,




                                                                                                                 Major Challenges for the Department
that the likelihood of Y2K failure is low because       (2) ensuring that all systems have been identified
these systems are not susceptible to many Y2K           and that any that were missed are confirmed to be
problems and because NESDIS exercised stringent         compliant, and (3) maintaining compliance by
quality control over system renovations and             freezing or minimizing further changes and retesting
conducted thorough “end-to-end” tests (see page         systems that are changed.
48). Our review of selected critical systems at the
Patent and Trademark Office found that they have            We are continuing to monitor the Department’s
been made Y2K compliant and were adequately             Y2K program and are currently completing our
tested (see page 60).                                   evaluations of the readiness of the National Weather
                                                        Service and the Census Bureau. We will apprise the
     For both agencies, we identified the need to       Department and the bureaus of any concerns and
ensure that system inventories are complete and that    recommendations we may have as quickly as
any new systems identified by the inventories are       possible. In our next issue, we plan to report on the
made Y2K compliant. Both agencies also need             bureaus’ transition of their systems to the year 2000.
policies to require that software changes to critical
systems be limited or frozen after they are made        Successfully Implement NWS’s
Y2K compliant and that systems be retested if they
                                                        Advanced Weather Interactive
are changed.
                                                        Processing System
    NESDIS agreed with all of our recommenda-
tions. PTO agreed with all but one of our recom-             The Advanced Weather Interactive Processing
mendations—that it conduct an end-to-end test of        System (AWIPS), the key integrating element of the
several of its critical systems.                        National Weather Service’s modernization program
                                                        and an essential ingredient to achieving intended
    We also reviewed NESDIS’s business continuity       operational improvements and staff reductions, is
and contingency plan (BCCP). NESDIS agreed with         also the last major system of the modernization to
our recommendation that it augment its standard         be implemented. AWIPS is intended to provide the
procedures for handling problems with its satellite     capability to acquire data from advanced observing
operations and data processing with contingencies       systems and to give forecasters tools to rapidly
for Y2K-specific failures. We are completing our        analyze the data, integrate it with the information
review of PTO’s BCCP and will report on our             provided by weather service guidance centers, and
findings in the near future.                            prepare timely and accurate warnings and forecasts
                                                        for dissemination to the public and the media.
    We are encouraged by our observations and
other evidence showing that the Secretary, Deputy            The AWIPS development program is operating
Secretary, Chief Financial Officer, and Chief           under a congressionally mandated cost cap of
Information Officer remain committed to carrying        $550 million as a result of its history of escalating
out activities needed to ensure that systems are Y2K    costs and schedule delays. Under the cap, AWIPS
compliant. The Department reported that all of its      must be developed to provide sufficient capabilities
473 mission-critical systems were compliant as of       to replace the aging field office systems, most
September 30, 1999.                                     notably the Automation of Field Operations and
                                                        Services (AFOS). In our last issue, we reported that

Commerce OIG Semiannual Report
September 1999
                                                                                                           5
                                      IG’s Message for the Congress


                                      NOAA planned to complete AWIPS by June 1999.                 Notwithstanding large investments of time,
                                      We also noted that the operational test and evalu-      money, and effort, implementation of the system,
Major Challenges for the Department




                                      ation, which NOAA planned to conduct in May and         known as the Commerce Administrative Manage-
                                      June 1999, needed to clearly demonstrate that           ment System (CAMS), proved more difficult than
                                      AWIPS has the capabilities to replace AFOS.             anticipated. The difficulties occurred, in part,
                                                                                              because the original CAMS contractor did not meet
                                           The operational test and evaluation of AWIPS,      established milestones and experienced problems in
                                      which was conducted as planned, showed that while       satisfying departmental requirements. These factors
                                      much of the software is capable of replacing AFOS,      caused the Department to revise its implementation
                                      some additional improvements are needed before the      strategy and schedule several times.
                                      system can officially be used as the primary system
                                      for preparation and distribution of NWS data                 During FY 1998, the Department redefined the
                                      products (i.e., before AWIPS can be commissioned)       composition and functionality of CAMS and
                                      and before AFOS is no longer the official system for    drastically revised its implementation strategy for the
                                      this purpose (i.e., before AFOS can be decommis-        system. The Department also reorganized its
                                      sioned). NOAA has implemented corrections to            management structure for the CAMS systems
                                      commissioning-related problems identified during the    development program. The revised strategy called
                                      operational test and evaluation and is in the process   for pilot implementation and testing of the redefined
                                      of correcting other problems found after testing that   CAMS (core CAMS) at the Census Bureau before
                                      would prevent commissioning.                            deploying the system at other bureaus.

                                           Deployment of AWIPS hardware was com-                  The pilot implementation of core CAMS at
                                      pleted on schedule in June 1999. NOAA projects          Census was completed in June 1998. An
                                      that the total base program cost at completion,         independent verification and validation study of the
                                      including corrections for software and hardware         system, as implemented at Census, concluded that it
                                      problems, will fall within the cap. We are              met departmental requirements and was as good as
                                      encouraged by NOAA’s recent efforts, and we are         or better than other core financial management
                                      continuing to monitor AWIPS’s progress toward           systems that have been fully implemented at other
                                      fully replacing AFOS and becoming commissioned.         large federal government agencies.

                                      Successfully Implement a                                    In September 1998, the Office of the Chief
                                                                                              Financial Officer and Assistant Secretary for
                                      Department-Wide Financial                               Administration, using the results of the independent
                                      Management System                                       study, completed a business case analysis of CAMS.
                                                                                              The analysis compared alternative strategies for
                                           The Department’s FY 1999 report to the             implementing core CAMS and recommended a
                                      President on management and internal accounting         modified approach, which involved implementing
                                      controls is again expected to state that Commerce is    core CAMS at the larger bureaus and having the
                                      not in compliance with the requirement that each        smaller bureaus obtain financial services through
                                      federal agency have a single, integrated financial      cross-servicing agreements. The Department agreed
                                      management system capable of providing timely,          with the recommendation and decided that core
                                      complete, and reliable financial information. To        CAMS would be implemented next at NOAA and
                                      address this material internal control weakness,        then at NIST.
                                      Commerce began developing a Department-wide
                                      financial system in 1992.

                                                                                                                  Commerce OIG Semiannual Report
                                       6                                                                                         September 1999
                                                            IG’s Message for the Congress


        NOAA initially developed a two-year plan to             NIST intends to complete its implementation
   implement core CAMS. However, in January 1999,           plan for core CAMS in FY 2000. After an
   NOAA established a limit on the funds available for      independent verification and validation study of the




                                                                                                                     Major Challenges for the Department
   implementation of core CAMS, effectively extending       plan, NIST will begin implementing the system in
   the implementation schedule to three years.              FY 2001.

         In discussing Commerce’s FY 2000 budget                 Until the Department is in compliance with the
   request, Office of Management and Budget officials       federal requirement for a single, integrated financial
   suggested that the Department consider acquiring         system, we will view the Department’s efforts to
   accounting services for NOAA from the Department         develop such a system as a major challenge
   of the Interior. Accordingly, in February 1999, the      warranting the attention of senior officials and
   Department’s Chief Financial Officer asked Interior      oversight by our office. We are continuing to
   if it could provide the same financial management        monitor and review selected aspects of the
   services, using American Management System’s             Department’s progress in implementing core CAMS
   Federal Financial System, at a more competitive cost     in all of its operating units. For example, we are
   and with lower management risk than could be             completing an audit of computer security at the
   provided by CAMS.                                        CAMS Support Center to determine whether the
                                                            center is complying with the requirements of the
        In April 1999, NOAA completed an analysis that      Computer Security Act of 1987.
   compared the cost, schedule, risks, and require-
   ments of implementing CAMS to obtaining the              Evaluate NTIS’s Mission
   accounting services from Interior. The analysis
                                                            and Financial Viability
   concluded that implementing CAMS would be less
   costly and risky and would better meet NOAA’s
                                                                 In our last issue (See March 1999 issue, page
   requirements. In May 1999, the Acting Chief
                                                            14), we discussed the need for the Department and
   Financial Officer and Assistant Secretary for
                                                            the Technology Administration to develop a solution
   Administration agreed with NOAA and informed the
                                                            to the National Technical Information Service’s
   Secretary of her decision to proceed with implemen-
                                                            longstanding financial problems. NTIS supports
   tation of core CAMS at NOAA.
                                                            itself through fees charged for its products and
                                                            services. In our September 1998 audit of NTIS’s
        FY 1999 marked a significant milestone for the
                                                            business operations, we reported that between
   Department in its implementation of CAMS. The
                                                            FYs 1995 and 1998, the agency incurred a
   Census Bureau continued full production of core
                                                            cumulative loss of $4.8 million. We concluded that if
   CAMS, deployed access to regional and decennial
                                                            this trend continued as expected, NTIS would
   census sites, and implemented additional modules
                                                            exhaust its retained earnings by the end of FY 1999
   for travel, budget, and inventory functions. Also, the
                                                            (see September 1998 issue, page 68).
   Economic Development Administration began
   implementing core CAMS in support of its financial
                                                                 NTIS reported total revenues of $33.3 million
   assistance programs. NOAA continued its
                                                            for FY 1999, a reduction of $3.4 million from
   implementation of CAMS, with the conversion of
                                                            FY 1998. However, the agency was able to avert a
   accounts payable transactions as well as a very
                                                            loss, and actually report a surplus of $652,000 at the
   limited amount of small purchase acquisitions. In
                                                            end of the year, by implementing several cost
   addition, the Department undertook an initiative to
                                                            reduction measures. These measures included
   develop a corporate database to integrate financial
                                                            transferring some of its staff to other Commerce
   data from all reporting entities.

Commerce OIG Semiannual Report
September 1999
                                                                                                                7
                                      IG’s Message for the Congress


                                      agencies, consolidating office space, eliminating         Expand Private Sector
                                      performance awards, and restricting travel.
                                                                                                Participation in NOAA’s Marine
Major Challenges for the Department




                                           Nonetheless, a November 1998 consulting study        and Aeronautical Data Gathering
                                      commissioned by TA, at our recommendation,
                                      concluded that even with significant efforts to               Since 1992, we have monitored and reported on
                                      reduce costs and improve profitability, NTIS can no       NOAA’s approach to acquiring marine and aero-
                                      longer generate sufficient revenue to remain self-        nautical data to support its programs. In a number of
                                      supporting. We are also concerned that in order to        reports, we pointed out that NOAA could achieve
                                      compensate for lost revenue, NTIS must seek               greater economy, efficiency, and effectiveness by
                                      business opportunities on the perimeter of its            increasing private sector participation in its marine
                                      statutory mission, where it risks competing against       and aeronautical data gathering efforts.
                                      private businesses.
                                                                                                Marine Data
                                           NTIS’s disappointing operating results raised
                                      questions not only about its ability to be self-               While NOAA has made progress in expanding
                                      sustaining, but also about the continuing need for a      private sector participation in acquiring hydrographic
                                      single federal clearinghouse for technical publications   data, we remain concerned about its emphasis on
                                      with the current structure and mission. NTIS’s            designing, owning, and operating four new fishery
                                      financial problems are just a symptom of a much           research vessels to meet some of its fisheries data
                                      larger problem—a steady decline in sales of its           collection needs, from FY 2000 through FY 2003,
                                      products and services caused by fundamental               without thoroughly assessing and aggressively
                                      changes in the marketplace. Moreover, federal             pursuing other alternatives. As we have said many
                                      agencies are increasingly bypassing NTIS as a             times before, we believe NOAA should not focus its
                                      distribution channel, instead offering their              efforts on designing, owning, maintaining, or
                                      publications directly to the public over the Internet.    operating ships (see, for example, our March 1996
                                                                                                issue, page 43). Instead, NOAA should clearly
                                          To address the primary issues and concerns            articulate its program needs for ship services to the
                                      related to the short- and long-term operations of         private sector, academia, and other government ship
                                      NTIS, a working group made up of senior managers          operators, with the goal of identifying modern, more
                                      from the Department and TA was formed to                  cost-effective platforms for its data collection needs.
                                      consider options for taking corrective actions. Based
                                      on the group’s efforts, the Department has drafted             NOAA has prepared a detailed data acquisition
                                      legislation that, if passed by the Congress and signed    plan for its fisheries mission, which outlines its
                                      by the President, would close NTIS by the end of          approach for acquiring the four fishery research
                                      FY 2000; transfer its collection of scientific,           vessels. Funding for one vessel has been approved
                                      technical, and engineering publications to the Library    by the Congress; however, NOAA’s plan does not
                                      of Congress; and ensure permanent public access to        address the very real possibility that the bureau will
                                      such publications. We will continue to monitor the        not receive follow-on funding for the remaining
                                      Department’s and TA’s efforts to address this             vessels in FYs 2001-2003. Nor does it indicate how
                                      important Commerce challenge.                             the data needed by the various fisheries programs




                                                                                                                     Commerce OIG Semiannual Report
                                       8                                                                                            September 1999
                                                           IG’s Message for the Congress


would be collected if the additional vessels are not       sector costs. We recommended that NOAA privatize
acquired. The absence of such a contingency plan           its light aircraft operations.
puts NOAA’s fisheries programs at serious risk.




                                                                                                                      Major Challenges for the Department
NOAA’s challenge is to thoroughly assess viable                 NOAA disagrees with our position and believes
alternative approaches instead of relying so heavily       that cost data it has collected indicates that its light
on its in-house fleet.                                     aircraft are cost competitive and that no funds would
                                                           be saved by using other sources to meet its data
Aeronautical Data                                          collection needs. NOAA has since engaged a
                                                           consultant to conduct an analysis regarding the light
     Since its establishment in 1983, NOAA’s               aircraft. Reportedly, the consultant’s analysis will in-
Aircraft Operations Center, now located at MacDill         clude a review of NOAA light aircraft costs and the
Air Force Base near Tampa, has been responsible            costs to contract for similar private-sector aircraft.
for gathering atmospheric, oceanographic, and other        NOAA’s challenge is to identify and thoroughly
data for such programs as hurricane and major              assess the best ways to collect its aeronautical data.
storm research, nautical and aeronautical charting,
climate and global change, and snow and aerial             Manage PTO’s Space
surveys. As NOAA’s major flight operations group,
                                                           Requirements and Lease Costs
the center operates a fleet of 14 aircraft, composed
of 2 heavy craft, 1 mid-size jet, 8 light fixed-wing
                                                                The Patent and Trademark Office’s space con-
aircraft, and 3 helicopters.
                                                           solidation project continues to be a major challenge
                                                           for the agency as it contends with the need to
     In December 1996, the President’s Council on
                                                           reinvent its business processes to make them more
Integrity and Efficiency reviewed the management
                                                           efficient and effective. PTO’s project is expected to
of the federal civilian aircraft fleet, including
                                                           be one of the largest real estate ventures that the
NOAA’s, and found that it cost the government in
                                                           federal government will undertake in the next
excess of $1 billion annually to operate its aircraft
                                                           decade. This fact, coupled with the intense interest
programs. Additional studies of operational
                                                           by the many diverse parties concerned with various
efficiencies, commissioned by the General Services
                                                           aspects of the project’s planning and development,
Administration, reported opportunities to reduce
                                                           makes getting it completed a special challenge.
costs by $92 million annually if most agencies
consolidated their operations and entered into
                                                                On behalf of PTO, GSA will award a contract
sharing arrangements.
                                                           to a private developer to construct a new facility or
                                                           renovate an existing one and lease it back to PTO
     We conducted an audit of NOAA’s light aircraft
                                                           for at least 20 years with the option to buy. The
fleet to determine whether outsourcing is more cost-
                                                           solicitation calls for the construction of the building
effective than in-house operation in meeting the
                                                           shell, to include basic electrical and mechanical
bureau’s aircraft requirements (see September 1998
                                                           systems, with the interior to be “built out” later. The
issue, page 44). Our audit concluded that the full in-
                                                           project has been delayed almost a full year because
house cost of operating NOAA’s light fixed-wing
                                                           it has been challenged in two separate federal court
aircraft and helicopters averaged 42 percent more
                                                           actions. GSA and PTO are contesting these
than the cost to operate similar aircraft in the private
                                                           challenges and hope to award the lease development
sector. In FY 1996, NOAA and interagency pro-
                                                           contract by December 1999, with occupancy of the
grams spent an additional $1.9 million to operate the
                                                           new building to begin in the summer of 2003.
bureau’s in-house aircraft as compared to private


Commerce OIG Semiannual Report
September 1999
                                                                                                                9
                                      IG’s Message for the Congress


                                           Given the size and importance of the planned        completed in a timely, cost-effective manner within
                                      PTO consolidation project, we conducted a review         the cost limits prescribed by the Congress.
Major Challenges for the Department




                                      of the project in 1998 to determine whether (1) the
                                      project was justified and (2) PTO was effectively        Maximize Competition in the
                                      managing the project’s critical acquisition phase (see
                                                                                               Department’s Financial
                                      March 1998 issue, page 54). The review concluded
                                      that the project was justified and should continue.      Assistance Programs
                                      We also found that PTO was managing many
                                      aspects of the lease/development procurement well.            In our last issue (see March 1999 issue, page 6),
                                                                                               we discussed our ongoing review of the criteria,
                                           However, we expressed several concerns about        procedures, and practices used to make funding
                                      PTO’s management and planning for this major             decisions under the Department’s discretionary
                                      procurement. For example, PTO had failed to              financial assistance programs. Our review is being
                                      finalize its space requirements or reach agreement       conducted at the request of the Chairman of the
                                      with one of its major unions concerning working          Senate Commerce, Science, and Transportation
                                      conditions related to space requirements in a timely     Committee, who made similar requests of the OIGs
                                      manner. In addition, we expressed concern about the      of the Department of Transportation and the
                                      lack of a contractual cost ceiling on the build-out.     National Science Foundation. The Chairman asked
                                      Also, in determining its space requirements, PTO         that we examine the criteria developed, statutorily or
                                      had failed to factor in potential savings and            administratively, to guide Commerce officials in
                                      efficiencies gained from systems reengineering and       making discretionary awards, as well as the extent to
                                      automation.                                              which such criteria were appropriately applied.

                                           PTO has responded favorably to all but two of            Discretionary financial assistance programs
                                      our recommendations and has incorporated plans for       involve a significant portion of the Department’s
                                      addressing them into its planning and management         budget and operations. Six Commerce agencies and
                                      of this project. Initially, PTO did not agree with       the Office of the Secretary administer 72 programs
                                      establishing a contractual ceiling for the build-out.    that provide a total of about $1 billion a year to state
                                      However, this is no longer an issue, as the Octo-        and local governments, educational institutions,
                                      ber 9, 1998, solicitation for offer placed a cap of      other organizations, and individuals.
                                      $29 million on the above standard build-out cost.
                                      PTO also disagreed with our recommendation that               Our review is focusing on the FY 1997 award
                                      related to potential savings and efficiencies gained     criteria, procedures, and practices of 33 programs
                                      from systems engineering and automation.                 we have classified as “full discretion” programs. For
                                                                                               the purpose of our review, full discretion programs
                                           Last year the then Acting Inspector General         are those programs whose authorizing legislation
                                      testified before the Subcommittee on Transportation      places no significant limitations on the Department’s
                                      and Infrastructure of the Senate Committee on            ability to independently determine the recipients or
                                      Environment and Public Works on our review of the        funding levels of the awards made under the
                                      project. He noted that although some of our              programs. These programs accounted for more than
                                      recommendations had not yet been fully addressed         1,700 awards and $802 million in FY 1997 funding.
                                      by PTO, we were satisfied that this project should
                                      continue. We still hold this view and believe that           We have completed audits and issued reports on
                                      continuing management attention and OIG oversight        22 of the 33 Commerce programs to date. These
                                      will be needed to ensure that the project is             programs represented 703 awards and $382 million

                                                                                                                    Commerce OIG Semiannual Report
                                      10                                                                                           September 1999
                                                         IG’s Message for the Congress


in 1997 funding. Of these programs, 10 are adminis-           We expect to issue final reports on the remaining
tered by NOAA, 4 by NIST, 2 by MBDA, 2 by                11 financial assistance programs during the next
NTIA, 2 by ITA, 1 by EDA, and 1 by the Office of         semiannual reporting period. Upon completing the




                                                                                                                  Major Challenges for the Department
the Secretary. We found that 13 of the 22 programs       audits, we plan to issue a capping report summariz-
were administered in accordance with the Depart-         ing the results of the individual audits, identifying
ment’s guidelines for soliciting, reviewing, and se-     cross-cutting issues, and providing recommendations
lecting financial assistance applications for funding.   to the Department for improvement. Based on the
                                                         work to date, we are encouraged by the Depart-
     We did, however, identify opportunities for         ment’s and bureaus’ positive responses and
improvement in specific aspects of the various           immediate actions on our recommendations.
awards processes. Several of the programs could
enhance the integrity of their procedures or bring       Continue to Improve the
more discipline to the award process by adopting the
                                                         Department’s Strategic Planning
following practices:
                                                         and Performance Measurement
l       Expanding proposal solicitation efforts.         in Accordance with GPRA
l       Including outside participants as proposal           Despite the many inherent challenges in
        reviewers to increase the objectivity of the     determining how to best plan and measure its
        selection process.                               performance in accordance with the Government
                                                         Performance and Results Act of 1993, the Depart-
l       Adequately documenting justifications for        ment has made progress in meeting this challenge
        deviations from review panel                     during FY 1999. The Department submitted its
        recommendations.                                 second annual performance plan, for FY 2000, to
                                                         OMB and the Congress in February 1999.
    The other nine programs we reviewed, eight
NOAA programs and one Office of the Secretary                 The Congress, the General Accounting Office,
program, made awards on a sole source basis              and we agreed that, while the FY 2000 plan was
without using competitive selection procedures.          significantly better than the FY 1999 plan, there was
                                                         room for additional improvement. Of particular
    We have recommended that NOAA and the                concern was the need for the Department to ensure
Office of the Secretary ensure that financial            that the data to be used in measuring performance is
assistance awards are made through a competitive         accurate, complete, and reliable. While the 2000
process, unless otherwise mandated by law or             plan discussed the methods the Department will use
adequately justified. We are pleased to report that      in the verification of performance data, the extent to
NOAA agrees that more awards should be granted           which the performance information can be relied on
competitively for all discretionary funding programs     remains unclear.
and that a rigorous solicitation process should be
used. The bureau is continuing to look at its current        We have regularly provided advice and assist-
processes and has provided an audit resolution           ance to the Department on implementing GPRA. We
proposal, which we are assessing. We are also            have made several presentations on the need to
pleased to report that the Office of the Secretary       improve the credibility of reported performance
converted its program to one that is competitive in      data, and have also focused attention on the linkage
FY 1998. Summaries of the seven reports issued           between the reporting of financial and performance
during this period are in the agency overviews.          information.

Commerce OIG Semiannual Report
September 1999
                                                                                                           11
                                      IG’s Message for the Congress


                                          During the audit of the Department’s FY 1998       activities. Based upon comments received from the
                                      financial statements, we found that the process used   bureaus, modifications were made to the proposed
Major Challenges for the Department




                                      by the Department to develop its statement of net      statement and measures planned to be reported.
                                      cost and overview could be strengthened by             This effort was essential because the Department
                                      improving communication and coordination between       plans to submit its first accountability report for
                                      the offices for strategic planning and financial       FY 1999.
                                      reporting. The overview, which identifies the
                                      Department’s most significant performance                   FY 2000 will be a challenging year as the
                                      measures, and the statement of net cost, which         Department revises its strategic plan, prepares its
                                      identifies the costs to achieve the results, link      initial program performance report, and submits its
                                      financial and performance reporting.                   third annual performance plan. We will continue to
                                                                                             look at the Department’s efforts to implement
                                          We worked with the strategic planning office       GPRA, provide advisory comments regarding
                                      and financial reporting office in their efforts to     GPRA documents, and, where resources permit,
                                      identify the Department’s most important measures      perform targeted reviews. Moreover, we will ensure
                                      and to implement a format for the statement of net     that there is consistency between the Department’s
                                      cost that effectively reflects the Department’s        financial and performance reporting.




                                                                                                                 Commerce OIG Semiannual Report
                                      12                                                                                        September 1999
                                                                IG’s Message for the Congress


                        OTHER ISSUES OF CONCERN
   Interagency and Other Special Agreements

        The Department of Commerce relies heavily on interagency and other special agreements in carrying
   out its mission. For example, in FY 1997, Commerce had more than 4,700 agreements, involving approxi-
   mately $1.1 billion in funds received for reimbursable activities or obligated to acquire goods or services
   from other parties. These agreements can be between Commerce entities or between one Commerce unit
   and another federal agency, a state or local government agency, an educational institution, a not-for-profit
   organization, or a private party. Although agreements involve a significant amount of federal resources, they
   are not subject to the same controls and oversight as contracts, grants, or cooperative agreements.

       During this semiannual period, we issued the last 2 reports, in a series of 10, covering our reviews of
   Commerce units’ agreements. These last two reports cover the Patent and Trademark Office and the
   National Technical Information Service (see pages 61 and 64).

        We are pleased to note that during this semiannual period, several of the most important recommen-
   dations made in one of the first reports in this series, the one covering the Office of the Secretary (see
   September 1998 issue, page 72), are being acted upon by the Department. Specifically, we recommended
   that the Department prepare formal policies and procedures covering agreements and develop a database to
   track agreements. The Department is now developing Commerce-wide agreements guidance, in the form of
   a handbook, which is being reviewed by the various bureaus, and is seeking to identify in-house resources
   for the development of the database. It is hoped that once the Department’s handbook and database are
   fully implemented, many of the problems we identified with agreements will be fixed.

       Following are some of our observations from the 10 reports issued to date:

   l       Most agreements reviewed appeared to serve important and appropriate functions. Also, we are
           pleased to note that the Department and some individual bureaus are improving their processes for
           preparing and monitoring agreements.

   l       Some bureaus have improperly entered into informal arrangements without the benefit of a written
           agreement.

   l       Agreements have sometimes been used when a traditional procurement contract would have been
           more appropriate.

   l       Agreements have sometimes been used when financial assistance awards would have been
           preferable.

   l       Bureaus generally do not adequately track and control agreements.

   l       Some bureaus need to improve their systems and procedures to better ensure full cost recovery
           under reimbursable agreements.


Commerce OIG Semiannual Report
September 1999
                                                                                                                   13
IG’s Message for the Congress


         In the near future, we will issue a capping report that will identify several cross-cutting issues found
     during our Department-wide review of agreements. In this report, we will also draw upon work related to
     agreements that was done as part of earlier OIG reviews. In addition to identifying common problems that
     the various Commerce bureaus have experienced in preparing and administering agreements, we will
     highlight several “best practices” for bureaus and line offices to consider adopting.

     Export Controls for Dual-Use Commodities

          The United States controls the export of certain goods and technologies for national security and
     foreign policy (including nonproliferation) purposes. Given the importance of export licensing and
     enforcement of export controls to national security, we have devoted considerable attention to the
     challenges facing the Bureau of Export Administration in issuing licenses authorizing the export of certain
     dual-use commodities. Dual-use commodities are goods and technologies that have both civilian and
     military uses. Controls over the export of dual-use commodities are a subject of continuing controversy,
     generating a wide range of opinions on how well the government’s export control policies and practices
     balance the need to protect U.S. national security and foreign policy interests with the desire not to unduly
     hamper U.S. trade opportunities and competitiveness. Striking this balance poses a significant challenge
     for the parties involved, including BXA.

         In addition, BXA must administer these export controls in a world with increasingly porous borders.
     In prior years, we identified some weaknesses in BXA’s controls over exports of biological agents (see
     September 1995 issue, page 23) and its effectiveness in conducting end-use checks and maintaining a
     watchlist to screen license applicants (see September 1997 issue, page 18). During this past year, we
     conducted a broad review of BXA’s leadership role in the interagency export licensing process.

         In August 1999, the Senate Committee on Governmental Affairs asked us, along with the OIGs of the
     Departments of Defense, Energy, State, the Treasury, and the Central Intelligence Agency, to conduct an
     interagency review of the export licensing process for dual-use commodities and munitions. As part of this
     review, the OIGs followed up on findings and recommendations from a similar interagency review com-
     pleted five years ago (see September 1993 issue, page 15). The review also examined the effectiveness of
     the Department of Commerce’s current policies, procedures, and practices in its licensing of dual-use
     goods and technologies.

         In June 1999, each OIG issued a report on its agency’s role in the licensing process (see page 17).
     The OIGs also issued a cross-cutting report that consolidated the findings and recommendations of all six
     reports. On June 23, 1999, the Commerce Acting Inspector General, along with the Inspectors General of
     the other five agencies, testified before the Senate Committee on Governmental Affairs on the findings
     and recommendations from the review.

         We will continue to monitor BXA’s efforts to improve export controls. As part of this effort, we will
     comply with the National Defense Authorization Act for Fiscal Year 2000, which mandates that we, along
     with the OIGs of the other five agencies, conduct annual assessments for the next eight years on the
     adequacy of current export controls and counterintelligence measures to protect against the acquisition of
     U.S. technology and technical information by countries and entities of concern.


                                                                                       Commerce OIG Semiannual Report
14                                                                                                    September 1999
                                                             IG’s Message for the Congress


                     RESOLUTION AND FOLLOW-UP
       The Inspector General Act Amendments of 1988 require this report to present those audits issued
   before the beginning of the reporting period (April 1, 1999) for which no management decision had been
   made by the end of the period (September 30, 1999). The following table presents the overall status.


                       Type of Audit Report                                  Unresolved

                       Performance                                                9

                       Financial Assistance                                       1


        Seven of the nine unresolved performance audits are audits of the awards processes of discretionary
   grant programs administered by NOAA. We are currently reviewing NOAA’s action plan for these audits.
   The other two audits, both unresolved for more than a year, deal with the NMFS laboratory structure and
   NOAA’s light aircraft operations. We are continuing to work with NOAA to explore alternative approaches
   to resolving these audits. (See page 54.)

       The unresolved financial assistance audit involves an EDA grant award. We did not agree with EDA’s
   response to the final report and are awaiting a revised audit resolution proposal. (See page 23.)

       Department Administrative Order 213-5, “Audit Resolution and Follow-up,” provides procedures for
   management to request a modification to an approved audit action plan, or for a financial assistance
   recipient to appeal an audit resolution determination. The following table summarizes modification and
   appeal activity during the reporting period.


                     Report Category                         Modifications      Appeals

                     Actions pending (April 1, 1999)               0                  8

                     Submissions                                   0               12

                     Decisions                                     0                  4

                     Actions pending (September 30, 1999)          0               16


       The 16 appeals pending final decision by the Department include 1 NOAA, 1 NTIA, 2 EDA, and
   12 NIST financial assistance audits. The EDA appeals are more than a year old.




Commerce OIG Semiannual Report
September 1999
                                                                                                              15
                                       Department of Commerce
                                       Organization Chart

                                                Office of the
                                                 Secretary



   Bureau of                     Economic                         International                           Patent and
    Export                      Development                           Trade                               Trademark
 Administration                Administration                    Administration                             Office




                   Economics and
                                                                                        Technology
                     Statistics
                                                                                       Administration
                   Administration




                                    Bureau of                          National Institute                   National
       Bureau of                                                        of Standards                       Technical
                                    Economic
      the Census                                                       and Technology                 Information Service
                                    Analysis




                                                                                          National
               Minority Business                    National Oceanic
                                                                                    Telecommunications
                 Development                        and Atmospheric
                                                                                      and Information
                   Agency                            Administration
                                                                                       Administration



                                         National                      National
                                     Marine Fisheries                  Ocean
                                         Service                       Service




                                         National                   NOAA
                                         Weather                     Corps
                                         Service                   Operations




                                                                     Oceanic
                                         NESDIS                  and Atmospheric
                                                                    Research




                                                                                            Commerce OIG Semiannual Report
16                                                                                                         September 1999
                                Bureau of
                     Export Administration

Export Licensing Process Needs Refinement                                     The Bureau of Export
                                                                              Administration is primarily
     On June 23, 1999, the Commerce Acting Inspector General—along            responsible for the administration
with the Inspectors General of the Departments of Defense, Energy, State,     and enforcement of the nation’s
the Treasury, and the Central Intelligence Agency—testified before the        system for controlling exports of
Senate Committee on Governmental Affairs on an interagency review of          sensitive dual-use goods and
the export licensing process for dual-use commodities and munitions. Dual-    technologies. Under the Export
use commodities are goods and technologies determined to have both            Administration Act and regulations,
civilian and military uses. The review was done in response to the            BXA’s major functions include
                                                                              formulating and implementing
Committee Chairman’s request that the six IGs look at the licensing
                                                                              export control policy; processing
process and update a similar interagency OIG review conducted in 1993         export license applications;
(see September 1993 issue, page 15).                                          conducting various policy,
                                                                              technical, and economic analyses;
     BXA administers the U.S. government’s export licensing and               promulgating regulations;
enforcement system for dual-use commodities for national security, foreign    conducting industry outreach; and
policy, and nonproliferation reasons under the authority of several laws,     enforcing the act and regulations.
including the Export Administration Act of 1979, as amended. Although         Export Administration
that statute expired in September 1990, export regulations promulgated        implements U.S. export control and
under the act remain in effect by executive order.                            nonproliferation laws and policies
                                                                              through export licensing,
                                                                              commodity classifications, and
    Our review found the licensing of U.S. dual-use exports to be an          advisory opinions; technical,
improved multi-agency review process that attempts to bring divergent         economic, foreign availability, and
policy views and information to bear on license decision-making. We also      policy analyses; promulgation of
concluded that the interagency referral and escalation processes for export   regulations; and industry outreach.
license applications are working reasonably well. There are four levels of    It also conducts various defense
escalation for dual-use cases: the Operating Committee at the senior civil    industry base activities.
service level, the Advisory Committee on Export Policy at the assistant       Export Enforcement participates
secretary level, the Export Administration Review Board at the Cabinet        in reviews of export license
level, and the President.                                                     applications and conducts criminal
                                                                              and administrative investigations of
                                                                              the export control portions of the
     We noted significant improvement in several aspects of BXA’s review      Export Administration Act and
of license applications and issuance of licenses since 1993. However, we      regulations. It also administers and
also found a number of problems that warrant the attention of BXA, the        enforces the antiboycott provisions
Department, the Administration, and the Congress. Our observations were       of the act and regulations.
as follows:

l       Current export control legislative authority and regulations
        need attention. New legislative authority is needed to replace the
        expired Export Administration Act and accurately reflect current
        export control policies. In addition, export control policies and
        regulations covering the release of technology to foreign
        nationals—referred to as “deemed exports”—are ambiguous and
        need to be revised.



Commerce OIG Semiannual Report
September 1999
                                                                                                               17
Bureau of Export Administration


                                     l     More transparency is needed in the commodity classification
             Bureau of                     process. Although BXA has instituted a front-end review
              Export                       mechanism to pre-screen exporters’ requests for commodity
           Administration                  classifications, BXA’s processing of these requests is often not
                                           timely, resulting in delays for exporters. In addition, BXA needs to
                                           work with both Defense and State to develop specific criteria and
    Export                Export           procedures for referring munitions-related commodity classifica-
 Administration        Enforcement
                                           tions to those agencies.

                                     l     The documentation on initial analyses of export applications
                                           should be enhanced. It was difficult to determine whether some
                                           license applications were being thoroughly analyzed by BXA
                                           licensing officers in the initial review period because there was
                                           little documentation as to how the officers reached their
                                           conclusions. Better policies and procedures, as well as additional
                                           training, could enhance officers’ documentation of their analyses
                                           of applications.

                                     l     The export license application review process has improved.
                                           The 1993 multi-OIG review pointed out that there was not
                                           complete accord between Commerce and most of the other
                                           federal agencies regarding license application referrals. Since that
                                           time, BXA has made improvements in the process for referring
                                           export license applications to other agencies. In FY 1998, BXA
                                           referred 85 percent of export license applications to other agencies
                                           for review, up from 53 percent in fiscal year 1993.


                                         Percentage of Export License Applications
                                                Referred to Other Agencies
                                         100%
                                                                                      91%           85%
                                          90%
                                          80%                               77%
                                          70%
                                          60%   53%        54%      51%
                                          50%
                                          40%
                                          30%
                                          20%
                                          10%
                                           0%
                                                1993      1994       1995      1996      1997      1998
                                                                       Fiscal Years
                                                                 White text

                                                                              Commerce OIG Semiannual Report
18                                                                                           September 1999
                                                                Bureau of Export Administration


l      Weaknesses in the review process need to be addressed. While
       the overall referral process is effective, action is needed to ensure
       that (1) licenses are not amended without interagency review,
       (2) adequate review time is provided to the Central Intelligence
       Agency for its end user checks, (3) a mechanism is established to
       better track and assess the cumulative effect of dual-use exports to
       a specific country or region, and (4) all parties to pending license
       applications are screened against a major law enforcement
       database maintained by the Treasury Department.

l      Dispute resolution process gives referral agencies a
       meaningful opportunity to escalate license applications. From
       fiscal years 1991 to 1998, the number of cases escalated to the
       Operating Committee increased by 353 percent, while the number
       escalated to the Advisory Committee on Export Policy decreased
       by 62 percent. In addition, only one case has been escalated to the
       Export Administration Review Board since 1991. The fact that
       there have been significantly more cases escalated to the Operating
       Committee, and many fewer escalated to higher levels, indicates
       that this process is working well.

l      BXA has sought interagency guidance during review of
       exporter appeals, but a more formal process is needed. Once
       an export license application has been denied, the exporter has the
       right to appeal to BXA, whose decision is considered final.
       Although BXA informally confers with the referral agencies on
       appeals, we believe that a formal process should be developed to
       include these agencies in the appeals process.

l      BXA needs to improve its monitoring of license conditions
       with reporting requirements. The ability to place conditions on a
       license is an important part of the license resolution process, as
       well as an additional means to monitor certain shipments. The
       1993 interagency OIG review reported that BXA was not
       adequately monitoring license conditions. We found that this
       problem still exists.

l      End use checks are a valuable tool, but some improvements
       are needed. End use checks, an important part of the license
       evaluation process, are used to verify the legitimacy of export
       transactions controlled by BXA and help prevent and detect illegal
       technology transfer. Many of these checks are conducted by
       Commerce’s U.S. and Foreign Commercial Service (US&FCS)
       officers stationed at overseas diplomatic posts; other checks are
       conducted by BXA special agents during overseas “safeguard”

Commerce OIG Semiannual Report
September 1999
                                                                                            19
Bureau of Export Administration


                                visits to foreign companies. We identified concerns with
                                US&FCS’s and BXA’s end use checks, including checks not done
                                within established time frames, the use of non-American personnel
                                to conduct some checks, the failure to perform on-site visits, and
                                insufficient coordination with other embassy offices and host
                                governments.

                        l       BXA needs a new automated export licensing system. BXA’s
                                Export Control Automated Support System, developed in 1984,
                                provides license processing and historical license information to
                                BXA and the referral agencies. While BXA’s export licensing
                                process has become more effective in recent years, its automated
                                system is lagging far behind. We strongly agree with BXA that it
                                needs a new system to process export license applications
                                efficiently and effectively.

                             BXA generally agreed with most of our observations and recom-
                        mendations. However, the bureau stated that some of the recommended
                        changes to its current practices do not have obvious benefits or may be
                        difficult to implement. In addition, BXA stated that virtually none of our
                        recommendations include any assessment of the budgetary impact. With
                        the exception of our recommendation that BXA develop a new automated
                        licensing system, we are not convinced that implementing our recom-
                        mendations would require substantial budget increases. We also contend
                        that all of our recommendations have the clear benefit of improving the
                        efficiency and effectiveness of the export licensing process. (Office of
                        Inspections and Program Evaluations: IPE-11488)




                                                                  Commerce OIG Semiannual Report
20                                                                               September 1999
                  Economic Development
                         Administration

Research and Evaluation Program Funding                                         The Economic Development
Decisions Should Be Documented                                                  Administration was established
                                                                                under the Public Works and
     As part of its Department-wide review of Commerce’s discretionary          Economic Development Act of
financial assistance programs, the OIG conducted an audit of the FY 1997        1965, as amended, including the
criteria, procedures, and practices for soliciting, reviewing, and selecting    comprehensive amendments by
                                                                                the Economic Development
preliminary and full proposals for financial assistance under EDA’s
                                                                                Administration Reform Act of 1998,
Research and Evaluation Program. Discretionary financial assistance             to generate new jobs, help protect
programs are those programs for which federal agencies have the authority       existing jobs, and stimulate
to independently determine the recipients and funding levels of awards.         commercial and industrial growth
                                                                                in economically distressed areas
     Through the Research and Evaluation Program, EDA provides                  of the United States. EDA does
financial assistance to individuals and organizations for the conduct of        this by providing grants to public
economic development research to help (1) determine the causes of               and private nonprofit organizations
unemployment, underemployment, underdevelopment, and chronic                    in communities with problems that
depression in the nation, and (2) formulate and implement national, state,      are stifling economic growth;
                                                                                planning grants to states, cities,
and local programs to raise income levels and otherwise produce solutions
                                                                                districts, and Indian reservations;
to the problems resulting from those conditions. During FY 1997, the            special economic adjustment
program awarded five grants, totaling $603,000.                                 assistance to states and local
                                                                                governments with recent, severe
    Based on our review, we found that there was insufficient                   problems or long-term economic
documentation of EDA’s award procedures and practices to determine              deterioration; technical assistance
whether they supported merit-based decisions and complied with federal          to communities to build
and departmental guidance. Specifically, we found that:                         organizational capacity and solve
                                                                                specific economic development
l       EDA developed criteria consistent with program objectives to            problems; and research and
                                                                                evaluation grants to increase
        evaluate proposals and applications for awards, but failed to
                                                                                knowledge about effective
        document its application of these criteria.                             economic development tools.

l       EDA published a solicitation notice in the Federal Register
        announcing the availability of funding and soliciting program
        proposals and applications for awards and also publicized the
        program on its web site; however, the notice did not provide
        potential applicants with a clear description of the procedures to be
        used in reviewing and selecting applications for funding.

l       EDA did not adequately document its procedures and practices for
        reviewing and selecting proposals and applications for awards.

     We recommended that EDA ensure that procedures and practices for
the solicitation, review, and selection of proposals and applications for
Research and Evaluation Program awards support merit-based decisions
by making sure that solicitation notices include all basic program informa-
tion and that EDA’s procedures and practices for the review and selection


Commerce OIG Semiannual Report
September 1999
                                                                                                                21
Economic Development Administration


                                               of proposals and applications are properly documented. EDA agreed with
               Economic                        our findings and recommendations. (Business and Trade Audits Division:
             Development                       BTD-11548-9-0001)
             Administration

                                               Midwestern Flood Grantee Had
      Program                  Finance and
                                               Inadequate Financial Management System
     Operations               Administration
                                                    In August 1997, EDA awarded two grants to a nonprofit organization
                  Cong. Liaison,               in a Midwestern city to alleviate the effects of an April 1997 flood that
                    Program                    crippled the city. The flood forced nearly 90 percent of the city’s residents
                  Research and                 to evacuate the area for several days and damaged numerous homes and
                   Evaluation
                                               businesses. Total disaster losses to the city were estimated at $1.8 billion.
                                               The organization, a regional resource for economic development initiatives
                                               that operates under the city’s job development authority, uses federal grant
                                               funds to award loans and grants, and make equity investments in regional
                                               business ventures.

                                                   One EDA grant of about $2.2 million was awarded to establish a
                                               revolving loan fund (RLF) to provide loans to the city’s small businesses.
                                               The second grant of nearly $6.9 million was awarded to construct a
                                               building to house businesses damaged by the flood.

                                                   An OIG interim financial audit of costs claimed under the two awards
                                               found that the organization’s accounting and financial management system
                                               did not comply with federal regulations, EDA requirements, or award
                                               terms and conditions. The deficiencies included the incorrect calculation of
                                               RLF income, an inadequate financial management system, failure to
                                               submit a program income reutilization plan, inadequate project inspection
                                               procedures, and unapproved project change orders.

                                                    We recommended that EDA direct the organization to correct the RLF
                                               income calculation, improve its financial management record-keeping,
                                               prepare a program income reutilization plan for EDA’s approval, reinspect
                                               the building, and obtain EDA approval for all unapproved change orders.
                                               The organization and EDA took actions that complied with our recom-
                                               mendations. (Denver Regional Office of Audits: DEN-11625-9-0001)

                                               Lease Agreement Reached Under
                                               Flood Grant Project Appears Deficient

                                                   As part of an earlier review of EDA’s Midwest Flood Program (see
                                               September 1998 issue, page 19), we conducted examinations of individual
                                               grant recipients, including a Missouri city and its co-recipient, a for-profit
                                               firm. EDA awarded a grant to construct a city-owned facility to replace a

                                                                                           Commerce OIG Semiannual Report
22                                                                                                        September 1999
                                                       Economic Development Administration


manufacturing plant that had been destroyed during the Midwest floods of
1993. Total funding for the project included approximately $2 million from
EDA and about $1 million from the grantees. Upon completion, the facility
was leased to a for-profit company.

    During our review, we found several deficiencies in the lease
agreement between the city and the for-profit company, including (1) lease
rates that appeared to be much lower than fair market rental rates for the
facility, (2) lease terms that allowed the transfer of the facility to the for-
profit company after the term of the 20-year EDA mortgage for less than
adequate consideration, and (3) lack of support for the 20-year life of the
facility, which was used to set the length of the mortgage.

     Because of the generous terms of the lease, we were concerned that
the transaction appeared to be a “pass-through” of EDA Title IX funds to
a for-profit company, in violation of the Public Works and Economic
Development Act. While the overall purpose of the project was met, we
believed that EDA needed to ensure that the lease transaction meets
agency requirements. We expressed our concerns to EDA in a May 7,
1999, memorandum. We are currently discussing with EDA officials the
actions needed to correct the noted deficiencies. (Denver Regional Office
of Audits)

Investigation in Brief
Sentencing. In the March 1999 issue (page 29), we reported on the
bribery conviction of a former economic development representative. The
conviction resulted from a joint OIG/FBI/IRS investigation, which found
that the official had accepted $3,000 from two individuals representing an
applicant for EDA grant funds. In May 1999, he was sentenced in U.S.
District Court for the Western District of Texas to 36 months’ probation,
fined $20,000, and ordered to perform 150 hours of community service.
(Denver Field Office of Investigations)

Audit Reports Unresolved for Over Six Months

    As of September 30, 1999, one financial assistance audit report, DEN-
10586-9-0001 (see March 1999 issue, page 28), had recommendations
unresolved for more than six months. The report found that a nonprofit
grantee in Texas had disregarded procurement standards in awarding a
$244,250 contract to a consulting firm. The report also questioned
$258,838 in salary costs and in-kind contributions because of inadequate
supporting documentation. EDA did not agree with our findings, and we
are awaiting the submission of a responsive audit resolution proposal.


Commerce OIG Semiannual Report
September 1999
                                                                                        23
                                       Economics and
                                       Statistics Administration

The Economics and Statistics
                                       Dress Rehearsal Quality Check Survey
Administration analyzes                Indicates Improvements Needed for Decennial
economic developments, develops
policy options, and produces a              On April 1, 2000, the Census Bureau will begin conducting the decen-
major share of U.S. government         nial census of the nation’s population for the purpose of congressional
economic and demographic               apportionment. Census data is also used for state and federal redistricting
statistics. The Chief Economist
                                       and allocating federal funds.
monitors and analyzes economic
developments and directs studies
that have a bearing on the                  Although the bureau attempts to count every resident during the
formulation of economic policy.        census, some undercount of the population has occurred in all decennials.
ESA has two principal agencies:        For 2000, the bureau plans to use a quality check survey in an attempt to
Bureau of the Census. Census is        more accurately estimate the population. Under this methodology, the
the country’s preeminent statistical   direct enumeration and the subsequent quality check sample survey will be
collection and dissemination           conducted independently. Although the Supreme Court determined that the
agency. It publishes a wide variety    Census Act bars the use of statistical sampling for apportionment purposes,
of statistical data about people and   the Court also wrote that the act requires the use of sampling, “if feasible,”
the economy of the nation,
                                       for all other purposes. The bureau intends to provide statistically corrected
conducting approximately
200 annual surveys, in addition to     numbers for non-apportionment purposes, based on its judgment that the
the decennial census of the U.S.       corrected count will be more accurate.
population and the decennial
census of industry.                         During the census, the bureau will begin the five major operational
Bureau of Economic Analysis.           phases of the quality check survey (see facing page): (1) developing an
BEA’s goal is to provide a clear       independent listing for each housing unit in the sample, (2) conducting
picture of the U.S. economy by         person interviews using laptop computers to gather and transmit census
preparing, developing, and             data for each unit, (3) conducting person matching to compare the results
interpreting the national income       obtained during person interviews with the results obtained in the census,
and product accounts
                                       (4) attempting to resolve discrepancies from the person matching phase
(summarized by the gross
domestic product), as well as          during person follow-up, and (5) performing the population estimation
aggregate measures of                  once sample data has been compared to census data.
international, regional, and state
economic activity.                          In 1998 the OIG conducted an audit to test quality check survey
                                       operations during the decennial dress rehearsal, whose purpose was to
                                       assess various operations and procedures to be used in the decennial. The
                                       dress rehearsal was conducted at three sites: (1) an 11-county area includ-
                                       ing the city of Columbia, South Carolina; (2) the city of Sacramento,
                                       California; and (3) the Menominee American Indian Reservation in
                                       Wisconsin. Our audit focused on person interview and person follow-up
                                       procedures in Columbia and Sacramento. We found several areas in which
                                       the bureau needs to make improvements in preparing for the decennial:

                                       l       The person follow-up phase encountered significant delays
                                               because the bureau was unable to provide the data necessary for
                                               field operations to begin. As a result, in trying to keep the quality
                                               check survey on schedule, bureau interviewers took shortcuts that
                                               we believe could degrade the accuracy of decennial results.

                                                                                   Commerce OIG Semiannual Report
24                                                                                                September 1999
                                                   Economics and Statistics Administration


l       The bureau did not have procedures for person follow-up to deter
        enumerators from falsifying interviews or to detect those that may           Economics and
        have occurred because it believed that such a process would be                 Statistics
        too complex to develop. However, this phase of the survey is                 Administration
        particularly susceptible to falsified interviews because both direct
        enumeration data and quality check survey data are preprinted on
                                                                               Bureau            Bureau of
        the questionnaire. Therefore, we believe that the benefits of           of the           Economic
        having such a process outweigh the challenges of developing it.        Census            Analysis


l       Although the use of laptop computers during the person interview
        phase generally worked as intended, interviewers identified several
        problems related to the electronic transmission of person interview
        cases from their laptops to the headquarters computer server.


           Dress Rehearsal Operational Flow
               for Quality Check Survey
        Census                      Data                Quality Check
       Operations               Integration              Operations


    Address Listing and                                   Independent
     Block Canvassing                                        Listing




    Mail Back and Other                                      Person
        Enumeration                                       Interviewing




                            Census/Quality Check
                              Person Matching




                                                      Census/Quality Check
                                                       Person Follow-Up




                                 Population
                                 Estimation




Commerce OIG Semiannual Report
September 1999
                                                                                                             25
Economics and Statistics Administration


                                These problems were caused in part by software errors in the case
                                check-in program on the server and by miscommunications
                                between headquarters officials, regional officials, and field staff.

                        l       Although the bureau intended to test the effectiveness of using
                                laptops to provide interviewer performance information to field
                                supervisors, technical problems hindered the bureau’s ability to
                                fully test the performance reporting system during the person
                                interview and person follow-up phases. For example, software
                                problems delayed the deployment of one report onto the laptops,
                                while the design of another report did not meet user needs.

                             Among our recommendations were that the bureau (1) identify and
                        resolve for the 2000 decennial the underlying causes of delayed person
                        follow-up operations, and ensure that data collection procedures are
                        followed by interviewers in the field, (2) develop a quality assurance plan
                        for person follow-up that is designed to deter and detect enumerator-
                        falsified data in the 2000 decennial, (3) correct and operationally test the
                        case check-in program and clearly communicate procedures for
                        retransmitting cases, and (4) operationally test the performance reporting
                        system before the 2000 decennial to ensure that correct and timely
                        information is available to field managers.

                            The bureau concurred with our recommendations. According to
                        bureau officials, plans for the quality check survey now include prioritizing
                        the workload so that the regional offices will receive large or difficult cases
                        early in the person follow-up operation to allow more time to work on
                        them. Bureau officials also state that a person follow-up quality assurance
                        program has been developed to detect falsification and ensure that
                        questionnaires have been completed properly and that information is
                        legible and usable. (Economics and Statistics Audits Division: ESD-
                        11449-9-0001)

                        Multiple Response Resolution Improvements
                        Needed for Accurate, Timely Census Processing
                             To make it easier for people to be counted in the 2000 Decennial
                        Census, the Census Bureau will allow households the option to respond in
                        several ways. In addition to collecting data through its traditional methods
                        of mailed questionnaires and in-person interviews, the bureau will allow
                        the public to respond by using forms available in public places, by
                        telephone, or over the Internet.

                            While multiple response methods increase the chances that people will
                        be counted, they also increase the likelihood of receiving more than one

                                                                    Commerce OIG Semiannual Report
26                                                                                 September 1999
                                                  Economics and Statistics Administration


response from a given housing unit, with some responses including the
same people. The bureau has devised procedures to count individuals at
each address and has automated this process, called multiple response
resolution (MRR). When multiple responses are received, MRR is
supposed to include people at an address who resided there on Census
Day, April 1, 2000, and omit people who did not or who were already
counted from another response for that housing unit.

     The OIG conducted an evaluation to determine whether MRR is likely
to resolve multiple responses correctly—and in the allotted time—during
the decennial. We observed the bureau’s preparations for using MRR
during the 1998 Dress Rehearsal and reviewed results from its processing
of dress rehearsal response data.

     The bureau’s “report card” on the dress rehearsal asserted nearly
perfect accuracy rates for MRR. However, the report card calculated
MRR errors in terms of the total enumeration, rather than the households
that submitted multiple responses. For example, although the report card
for MRR in Sacramento showed an error rate of only 0.3 percent based on
total enumeration, the error rate based on a calculation of MRR’s success
in resolving multiple responses was 9 percent—30 times as high. In
reporting on future performance, the bureau should identify MRR’s
accuracy in resolving multiple responses, as well as the impact of MRR
errors on the total enumeration.

     We identified several conditions that diminished the accuracy of MRR
results in the dress rehearsal. Problems with the questionnaire design, the
way the public completed the questionnaire, and automated data capture in
some cases caused inaccurate data to be sent for MRR processing. More-
over, the MRR software sometimes produced questionable results. MRR
analysts are reviewing the dress rehearsal and evaluation data to determine
what modifications are needed to the procedures and associated software
for resolving multiple responses.

    In addition, we concluded that the bureau cannot ensure that the
process is implemented correctly because it did not use a sufficiently
structured approach in developing the MRR software. A more structured
approach, using software engineering standards, would help ensure correct
implementation of MRR. Software testing also needs to be expanded to
address more diverse response data and ensure that MRR can reliably
handle a wide array of potential input conditions. Finally, the bureau needs
to make a coordinated effort to perform beginning-to-end testing of
questionnaire data processing to ensure that the output from each step is
accurate and can be input into the next step without error.


Commerce OIG Semiannual Report
September 1999
                                                                                       27
Economics and Statistics Administration


                             We also found that, based on dress rehearsal results, MRR processing
                        for the decennial census would require more than the 30-day period that
                        the bureau has estimated to ensure the timely availability of data for
                        follow-on processing operations. The bureau needs to obtain additional
                        computing resources and modify the MRR software to reduce excessive
                        processing time.

                              To address these issues, important decisions concerning MRR
                        requirements and design must be made and significant development and
                        testing work accomplished. The bureau has acknowledged many of the
                        issues addressed by our report and is analyzing the dress rehearsal data
                        and working on improvements to MRR. In addition, it has made substan-
                        tial improvements to the data capture system since the dress rehearsal.
                        However, the bureau has not fully defined the activities needed to refine
                        MRR and complete its development. We made several recommendations
                        to assist the bureau in defining these activities and developing and
                        implementing a plan for their completion.

                            The bureau stated that it concurred with, or had already acted upon,
                        most of our recommendations. After the report was issued, the bureau
                        reported having taken several actions to simplify the process to reduce
                        processing time. (Office of Systems Evaluation: OSE-10711)

                        Decennial Public Awareness Campaign
                        Is Meeting Program Objectives
                             Despite the importance of having accurate decennial census data, and
                        the public’s obligation to answer and return census forms, the Census
                        Bureau has been confronted with a steady decline in the mail response
                        rate. The portion of households that complete and mail back the census
                        form was 75 percent in 1980 and 65 percent in 1990. It is expected to
                        decline to 61 percent in 2000.

                             When households do not respond to the decennial, costs increase
                        dramatically because the bureau must hire enumerators to contact each
                        non-responding household to obtain the data. In 1990 the average cost of
                        enumerating a household that mailed back a questionnaire was $2. But the
                        cost quickly escalated to $12 when an enumerator had to contact the
                        household, and approached $36 for households that required additional
                        follow-up contacts.

                           Despite the bureau’s follow-up efforts, many households remain
                        uncounted. In 1990 the estimated net undercount (the number of people
                        undercounted minus the number overcounted) was about 4 million people.


                                                                  Commerce OIG Semiannual Report
28                                                                               September 1999
                                                 Economics and Statistics Administration


Furthermore, the undercount was not equally distributed across all dem-
ographic groups, a factor called the differential undercount. For example,
in 1990 the net undercount for the nation as a whole was 1.6 percent.
However, the net undercount was 4.4 percent among African Americans,
5.0 percent among Hispanics, 2.3 percent among Pacific Islanders, and
12.2 percent among American Indians.

    To boost mail response rates for Census 2000, especially among
historically undercounted groups, the bureau will undertake special public
awareness efforts to reach every person. These efforts principally
comprise two major activities:

l       Conducting an advertising campaign aimed at increasing the mail
        response rate, including that of historically undercounted popu-
        lations. For the first time, the campaign will incorporate paid
        television, radio, and print ads.

l       Leveraging local knowledge and contacts by building partnerships
        with state, local, and tribal governments, community-based
        organizations, the media, and private-sector organizations.

    The OIG conducted an audit of both activities involved in the bureau’s
public awareness campaign and, because the two activities have similar
goals—increasing the mail response rate and reducing the undercount—
also evaluated the coordination between them.

     In October 1997, the bureau awarded a contract to an advertising firm
to create and produce an extensive advertising campaign to inform and
motivate the public to complete and return the census form. We believe
that the development of the Census 2000 advertising message is supported
by a sound methodology and that the contractor’s actions effectively
addressed the required objectives. The contractor hired subcontractors
familiar with the groups that had been historically undercounted;
performed research and extensive testing; and created a message aimed at
getting people to respond by explaining how they benefit from the
decennial. Moreover, the advertising firm presented the creative concepts
to and actively sought feedback from many groups, including the bureau,
the Department, the Census Advisory Committee, and the Congress.

    We also found that the partnership program was implementing a
comprehensive, effective nationwide program directed at increasing the
mail response rate and thereby reducing the undercount. To accomplish its
goals, the program has coordinated extensively with its government,
business, and community-based partners. As of mid-July, the bureau had
secured nearly 22,000 partnerships. These partners are closely affiliated


Commerce OIG Semiannual Report
September 1999
                                                                                      29
Economics and Statistics Administration


                        with the hard-to-count populations and should be instrumental in getting
                        these groups to respond.

                             The bureau has also implemented several initiatives to address a lack
                        of coordination between the advertising campaign and the partnership
                        program identified during the 1998 Dress Rehearsal. Based on our review,
                        it appears that these initiatives will provide for sufficient coordination
                        among the regions, the partnership program, and the Publicity Office.

                             Whether the advertising campaign and partnership program will
                        motivate households to participate by filling out and returning the
                        questionnaire will only be known after the decennial is completed. To
                        answer this question, the bureau is implementing plans to conduct post-
                        census evaluations of both activities. Given the unprecedented effort to
                        increase mail response and reduce the differential undercount, we agree
                        that it is imperative that the bureau evaluate these activities to decide
                        whether they should be continued for 2010.

                            Because our review revealed no significant problems, our report
                        contained no recommendations. (Economics and Statistics Audits
                        Division: ESD-11755-9-0001)

                        Methods of Archiving Decennial Data and
                        Disposing of Questionnaires Need Finalizing
                             During the 2000 Decennial Census, completed questionnaires received
                        from households will be sent to data capture centers across the country for
                        processing. To capture the data in a timely and efficient manner, the
                        Census Bureau has awarded two contracts—the first for the development
                        of a state-of-the-art system, Data Capture System 2000 (DCS 2000) (see
                        March 1999 issue, page 30), and the second, a services contract to provide
                        for the facilities, personnel, management, and equipment and supplies to
                        perform data capture operations using DCS 2000. The bureau is respon-
                        sible for ensuring that the data is secured and not improperly disclosed.

                             At the request of the House Government Reform and Oversight
                        Committee, the OIG conducted an inspection to address concerns relating
                        to the ownership of the completed questionnaires and the adequacy of the
                        questionnaire disposal and inspection provisions.

                            In examining the services contract and related Census documents, we
                        found that ownership of the completed questionnaires appropriately
                        remains with the bureau, and that the provisions for government inspec-
                        tions to ensure proper disposal of the questionnaires are adequate. We also


                                                                   Commerce OIG Semiannual Report
30                                                                                September 1999
                                                  Economics and Statistics Administration


found, however, that the bureau has not yet finalized its plans and
procedures for questionnaire retention and disposal and cannot do so until
a method has been identified for archiving the data that is acceptable to the
National Archives and Records Administration. An agreement on archiving
is needed before Archives will authorize destruction of the questionnaires
and approve a destruction schedule.

    We recommended that the bureau:

l       Develop an archiving proposal for 2000 decennial data and begin
        discussing the proposal with Archives within 30 days.

l       After reaching agreement with Archives on a questionnaire
        destruction schedule, incorporate relevant portions of the plan and
        procedures concerning the retention and disposal of completed
        questionnaires into the services contract.

l       Immediately formalize its plan and procedures for the retention,
        use, and disposal of dress rehearsal questionnaires and incorporate
        the contractor’s responsibilities into the DCS 2000 contract.

    The bureau agreed to implement our recommendations. (Office of
Systems Evaluation: OSE-10758)

Allegations Made by Census Employee
Against Supervisor Were Not Substantiated
    In response to a congressional inquiry regarding allegations made by a
temporary Census Bureau field office employee against a supervisor, the
OIG conducted a review to determine the validity of the claims. The
employee alleged that during the block canvassing operation, conducted to
verify mailing addresses in preparation for the 2000 Decennial Census,
(1) data submitted was false and inaccurate because data pages were
removed, unsupported changes were made, and data was submitted under
the accuser’s name without the required quality assurance procedures
being completed; (2) employees were denied reimbursement for overtime
worked and mileage driven; and (3) employees were treated with
disrespect by being publicly humiliated by the supervisor.

    We reached the following conclusions about the three allegations:

l       Regarding the allegation of inaccurate data, we examined the
        bureau’s data quality assurance procedures, which allow data to be
        corrected and revised at several stages during the block canvassing
        operation, and concluded that the procedures had been followed.

Commerce OIG Semiannual Report
September 1999
                                                                                       31
Economics and Statistics Administration


                                Because the bureau has the experience, knowledge, and program
                                responsibilities to provide accurate data, we referred the specific
                                allegation about inaccurate data to the bureau, asking it to advise
                                us of the results of its inquiry.

                        l       The allegation that employees were denied reimbursement for
                                overtime and mileage was not substantiated. Overtime was neither
                                requested by the employees nor authorized by local census office
                                officials for the block canvassing operation, and employees were
                                reimbursed for all mileage claimed.

                        l       Due to the lack of objective documentary evidence and the
                                inconsistent accounts of persons involved, we could neither
                                confirm nor disprove the allegation that employees were treated in
                                a disrespectful manner. (Seattle Regional Office of Audits)

                        Preliminary Work Identifies Concerns
                        with Decennial Leasing Operations
                             During our ongoing review of the bureau’s efforts to lease office space
                        for the 2000 Decennial, several issues came to our attention that warranted
                        immediate management attention. Rather than wait until the issuance of a
                        formal report, we informed the bureau of our preliminary observations in
                        an interim memorandum so that it could achieve cost savings and other
                        benefits during later phases of the decennial leasing operation.

                             Among the issues we identified were (1) concerns about the proposed
                        Census Bureau-General Services Administration memorandum of
                        understanding for the second phase of leasing, (2) potentially significant
                        cost savings on leased space build-out, (3) the oversupply of materials and
                        office supplies for block canvassing at certain locations, and (4) persistent
                        problems with some local census office telephone systems.

                            A fifth issue of concern was that many leases from the initial phase of
                        local office openings were awarded without adequate competition. This
                        lack of competition resulted from the fact that the delineated geographic
                        areas within which offices could be located were too narrowly drawn,
                        which limited the number of lessors who could bid on the leases. As a
                        result, the leases for many sites were more expensive than anticipated, and
                        the bureau lost time in re-competing some leases. However, we have noted
                        a concerted effort by the bureau to broaden its delineated areas in the latter
                        phases of the lease acquisitions, a strategy that has resulted in greater
                        competition. The bureau also said it would address the other issues we
                        brought to its attention. Our final report will discuss the bureau’s actions
                        on these matters. (Office of Inspections and Program Evaluations)

                                                                    Commerce OIG Semiannual Report
32                                                                                 September 1999
                                  International
                           Trade Administration

Inspector General Testifies on Progress                                                 The International Trade
of U.S. Export Assistance Center Network                                                Administration is responsible for
                                                                                        most nonagricultural U.S. trade
     On September 9, 1999, the Inspector General testified before the                   issues and works with the Office of
House Small Business Subcommittee on Tax, Finance, and Exports on the                   the U.S. Trade Representative in
OIG’s work related to U.S. Export Assistance Centers (USEACs).                          coordinating U.S. trade policy. ITA
                                                                                        has four principal units:
US&FCS operates a “hub and spoke” network consisting of 19 USEACs
                                                                                        Market Access and Compliance.
connecting 86 smaller Export Assistance Centers. The USEACs, the hubs                   MAC develops and implements
of the network, are “one-stop shops” where US&FCS, along with the                       international economic policies of
Small Business Administration (SBA) and the Export-Import Bank (Ex-Im                   a bilateral, multilateral, or regional
Bank), bring together federal, state, and local government and private                  nature. Its main objectives are to
sector expertise to better assist U.S. exporters.                                       obtain market access for American
                                                                                        firms and workers and to achieve
    The IG’s conclusions were essentially the same as those reported three              full compliance by foreign nations
years earlier in an OIG assessment of the development and rollout of the                with trade agreements signed with
USEACs (see March 1996 issue, page 33)—namely, that although prob-                      the United States.
                                                                                        Trade Development. TD advises
lems remain, the USEACs are demonstrating their ability to meet the needs
                                                                                        on international trade and
of U.S. exporters. His conclusions were based on the progress the centers               investment policies pertaining to
have made in demonstrating that federal agencies can work together to                   U.S. industrial sectors, carries out
provide export assistance much better than under the previous fragmented                programs to strengthen domestic
approach. The IG’s observations, discussed in the following sections, were              export competitiveness, and
derived from a series of OIG audits, evaluations, inspections, and follow-              promotes U.S. industry’s
up work that included visits to the centers depicted below:                             increased participation in
                                                                                        international markets.
                                                                                        Import Administration. IA
                                                                                        defends American industry against
         USEAC/EAC Sites Visited by the OIG                                             injurious and unfair trade practices
         Since Inception of Program in 1994                                             by administering the antidumping
                                                                                        and countervailing duty laws of the
                                                                                        United States, and enforcing other
         Seattle USEAC
                                                                                        trade laws and agreements
                                                                                        negotiated to address such trade
                                                                  New York City USEAC   practices.
                                                                  Harlem EAC            U.S. & Foreign Commercial
                                                                  Newark EAC
                                          Chicago USEAC                                 Service. US&FCS promotes the
                                                          Baltimore USEAC               exports of U.S. companies and
                              Denver USEAC            Northern Virginia EAC
                                                                                        helps small and medium-sized
     San Francisco EAC             St. Louis USEAC
                                                                                        businesses market their goods
         Los Angeles EAC
         Long Beach USEAC                                                               and services abroad. It has 105
         Newport Beach EAC                                                              domestic offices and 138 overseas
                                                 Atlanta USEAC
           San Diego EAC                                                                posts in 75 countries.
                                                Dallas USEAC

                             Austin EAC


                                                               Miami USEAC




Commerce OIG Semiannual Report
September 1999
                                                                                                                           33
International Trade Administration


                                          l   Federal partners are increasingly working in a cooperative
             International                    fashion. More often than not, the collocation of export promotion
                 Trade                        and trade finance partners in the USEACs fosters closer working
            Administration                    ties and strengthens information exchanges, resulting in improved
                                              export marketing and export finance assistance to small and
                          Market
    Import                                    medium-sized U.S. businesses.
                        Access and
 Administration
                        Compliance
                                          l   Staffing at some USEACs remains a concern. While SBA has
    Trade              U.S. and Foreign       at least one representative in every USEAC, Ex-Im Bank has staff
                        Commercial
 Development
                           Service
                                              physically located in only four USEACs. Ex-Im Bank officials
                                              emphasize that they have city/state partners in the vicinity of
                                              many EACs serving as authorized agents for Ex-Im Bank prod-
                                              ucts and services; however, the ability and commitment of such
                                              partners have been questioned by USEAC staff and other
                                              stakeholders.

                                          l   USEACs need a better system for identifying, measuring, and
                                              reporting programmatic accomplishments. Currently, each of
                                              the three partner agencies assesses its performance only as an
                                              individual part of the USEACs; for example, US&FCS tracks
                                              export actions. We encouraged the development of additional
                                              performance criteria, such as joint counseling sessions and
                                              mutually beneficial outreach activities, that view the USEAC as a
                                              single entity.

                                          l   The USEAC network is fostering stronger partner
                                              relationships with state and local trade organizations. Some
                                              USEACs have already gone beyond being simply a federal
                                              partnership by also sharing resources with state and local export
                                              promotion organizations. These state and local partnerships have
                                              allowed some duplicative programs to be eliminated, while
                                              enhancing the quality and delivery of export assistance services to
                                              U.S. businesses.

                                          l   Coordination between the USEACs and US&FCS’s overseas
                                              posts could be better. Cooperation has been spotty and too often
                                              dependent on the commitment of the individual staff at Export
                                              Assistance Centers and overseas posts. Specifically, our reviews
                                              have confirmed cases where US&FCS posts either were not
                                              timely in providing important products and services that USEAC
                                              clients were waiting for or provided products and services of
                                              inferior quality. US&FCS is working to remedy this situation
                                              through initiatives designed to increase teamwork among its trade
                                              specialists and help its domestic and overseas staff better
                                              understand each other’s functions.

                                                                                Commerce OIG Semiannual Report
34                                                                                             September 1999
                                                            International Trade Administration


l       Marketing of centers’ products and services should be
        improved. According to representatives of some of the federal,
        local, state, and private trade organizations we spoke with,
        inadequate marketing is one of the biggest hindrances to delivering
        valuable USEAC services to U.S. exporters. Some believe that the
        USEACs are not effectively getting out the message of who they
        are, where they are, what they do, and what products and services
        they have to offer.

    The IG concluded by expressing his optimism about the future of the
USEACs and their potential to continue to improve their effectiveness in
helping to meet the export promotion and trade finance needs of U.S.
exporters.

OIG Continues Its Overseas Work
with Reviews of Three US&FCS Posts
    During this semiannual period, the OIG continued its reviews of
Commerce overseas posts (see September 1998 issue, page 35, and March
1999 issue, page 40), which are under the direction of ITA’s U.S. and
Foreign Commercial Service. The reviews are designed to evaluate the
posts’ operational effectiveness and determine whether they are efficiently
accomplishing their mission of providing U.S. companies, especially small
and medium-sized ones, with export assistance. In the following sections,
we summarize the reports of the three inspections of the posts we issued
during this semiannual period—China, Brazil, and South Africa.

China

    The People’s Republic of China is the United States’ fourth largest
trading partner. From 1992 to 1998, U.S. exports to China increased by
more than 90 percent, growing from $7.5 billion to $14.3 billion. However,
because China’s exports to the United States have grown even faster, the
U.S. trade deficit with China reached $57 billion in 1998. Although trade
barriers still exist in the areas of tariffs, market access, standards, and
intellectual property rights, China, with a population of 1.3 billion, is a
market with enormous potential for U.S. companies.

    Recognizing the importance of China to overall U.S. trade relations,
ITA has focused a great deal of attention on this emerging market. From
1996 to 1998, US&FCS increased its operations and administrative budget
for China by over 50 percent—from $2.3 million to $3.6 million. In
addition to carrying out its core trade promotion duties, US&FCS China
has assisted many other U.S. government agencies, Members of Congress,


Commerce OIG Semiannual Report
September 1999
                                                                                           35
International Trade Administration


                         and state delegations that have traveled to China to deal with a variety of
                         trade policy and promotion issues. In addition to hosting a steady stream of
                         visitors, US&FCS China has counseled many U.S. businesses and
                         provided a wide range of services, including handling trade disputes and
                         organizing trade events to meet U.S. companies’ needs.

                              The OIG’s inspection of US&FCS’s operations in China involved
                         visits to all five constituent posts: Beijing, Shanghai, Guangzhou, Chengdu,
                         and Shenyang. We found that clients gave US&FCS China’s staff high
                         marks for their ability to handle multiple trade issues, their knowledge of
                         the market, and their willingness to assist U.S. businesses. However, we
                         also found problems that warrant management’s attention:

                         l       The quality of some products needs to be improved. U.S.
                                 business clients were generally satisfied with the services provided
                                 by US&FCS, especially the export counseling sessions and trade
                                 advocacy efforts. The production and timeliness of market
                                 research products have increased, but the quality and consistency
                                 of reporting among the five posts should be improved.

                                 US&FCS’s services designed to help U.S. exporters identify
                                 business leads and contacts received mixed reviews. Clients who
                                 purchased the Gold Key Service, a tailored mix of orientation
                                 briefings, market research, and appointments with potential
                                 partners, were generally pleased, although some pointed out the
                                 need for better targeting and prescreening of companies. Clients
                                 who purchased the Agent/Distributor Service, a customized over-
                                 seas search for qualified agents, distributors, and representatives
                                 for U.S. firms, rated this service the lowest due to cancellations by
                                 the post, poor targeting of potential companies, and long delivery
                                 times. The post was taking steps to improve this service.

                         l       Export control checks warrant continued monitoring. In
                                 addition to trade promotion activities, US&FCS China also fulfills
                                 its export control responsibilities to the extent that the Chinese
                                 authorities permit pre-license checks and post-shipment verifica-
                                 tions. We noted that some scheduled pre-license checks had been
                                 canceled by the authorities. The United States was granted per-
                                 mission to conduct post-shipment verifications after our inspec-
                                 tion, but this is an area we continue to monitor as part of our
                                 interagency review of the export licensing process (see page 17).

                         l       Management should address US&FCS China’s needs. Despite
                                 the importance of China to U.S. trade relations, ITA had left the
                                 deputy senior commercial officer position vacant for over

                                                                    Commerce OIG Semiannual Report
36                                                                                 September 1999
                                                              International Trade Administration


        15 months. As a result, the senior commercial officer—who was
        on his first posting in that capacity—had to juggle many responsi-
        bilities and delegate others to inexperienced officers. Without a
        deputy, he also had insufficient time to devote to managing
        internal operations and building a strong, integrated country
        program. Consequently, the five constituent posts were not work-
        ing effectively together, and many financial and administrative
        responsibilities had been neglected. Moreover, US&FCS manage-
        ment in Washington had neither provided sufficient guidance on
        building a strong export promotion program nor developed a
        regional plan for dealing with the Asian financial crisis.

l       Longstanding problems in financial operations need to be
        resolved. US&FCS’s financial operations were troublesome due
        to inexperienced staff, a lack of management emphasis on
        monitoring and managing funds, and problems in the Beijing
        Embassy’s budget and fiscal office and the consulates’ cashier
        operations. US&FCS China could not rely on the financial reports
        produced by the budget and fiscal office because they did not
        accurately depict the post’s financial status; delays in that office’s
        processing of the post’s vouchers and overstated obligation reports
        provided a false picture of the post’s financial position. Improve-
        ments were also needed at all five posts in monitoring appropriated
        funds, overseeing deposit funds, reducing unliquidated obligation
        balances, and correcting weak internal control systems.

l       Administrative and personnel matters require more attention.
        Managers in Washington and Beijing have to pay more attention to
        the administrative and personnel matters of US&FCS China.
        Because the post is staffed primarily with less experienced offi-
        cers, more mentoring and training are needed, and efforts must be
        made to bring more experienced officers to China. Management
        must also work on retaining the foreign national staff by providing
        them with better training, classifying them at appropriate grades,
        and helping them advance in their careers. Greater focus must also
        be placed on more effectively tracking property and coordinating
        information technology needs. Finally, we urged the post and
        US&FCS Washington to explore options to relocate the Beijing
        post, which has outstripped its available space and resulted in an
        inefficient, less-than-professional-looking office environment.

     We also devoted sections of our report to each of US&FCS China’s
five constituent posts, discussing their successes and making recommenda-
tions in areas needing improvement. We highlighted the accomplishments
of the Shanghai Commercial Center, which had an active schedule of trade

Commerce OIG Semiannual Report
September 1999
                                                                                             37
International Trade Administration


                         events. However, we urged the post to work more closely with its four
                         collocated state government and trade association partners.

                              US&FCS agreed with most of our recommendations and identified the
                         steps it has taken to implement some of them. We were especially pleased
                         to see that the posts and US&FCS headquarters have indicated their
                         commitment to address many of the program gaps and management and
                         administrative problems highlighted in our report. (Office of Inspections
                         and Program Evaluations: IPE-10915)

                         Brazil

                             With an estimated population of 162 million and a gross domestic
                         product of $800 billion, Brazil represents the United States’ third largest
                         market in the Western Hemisphere, after Canada and Mexico. Economic
                         reform and privatization of state-owned enterprises are opening new
                         markets and resulting in unprecedented opportunities for U.S. business.
                         The United States is the largest foreign investor in Brazil, accounting for
                         almost 34 percent of total foreign direct investment. The US&FCS
                         commercial post in Brazil is the fifth largest in the world, in terms of
                         dollars and staff, with total FY 1998 expenditures of $3.1 million.

                              We observed the post’s operations and activities, located in the cities
                         of São Paulo, Brasilia, Belo Horizonte, and Rio de Janeiro. We found that
                         US&FCS Brazil is an energetic post that is meeting its mission of serving
                         U.S. exporters. In addition, the São Paulo Commercial Center, the most
                         significant feature of post operations, is being used creatively and actively
                         to support the post’s programs and the needs of U.S. exporters and
                         Brazilian importers. Other positive aspects of US&FCS Brazil’s operations
                         include an improved program under the commercial officer present during
                         the time of our review; frequent, extensive communications between
                         management and staff, and between São Paolo and its constituent posts;
                         extensive marketing and outreach; and new, innovative programs to
                         promote U.S. products.

                             However, we also identified concerns in a number of financial,
                         program, and management areas that need to be addressed. Our most
                         significant observations were as follows:

                         l        Scope and use of performance tracking system need to be
                                  reconsidered. While US&FCS Brazil has designed and
                                  implemented an effective work and performance tracking system
                                  for its operations, the system appears to be inappropriately deter-
                                  mining individual priorities and may be undermining teamwork and
                                  cooperation among staff. Post management needs to rethink this

                                                                    Commerce OIG Semiannual Report
38                                                                                 September 1999
                                                            International Trade Administration


       concept and revise the system to counter these side effects. In
       addition, US&FCS headquarters should evaluate the system’s
       appropriateness for other posts.

l      São Paulo Commercial Center needs to be refocused and
       more effectively managed. Recognizing that each commercial
       center must adapt to the unique needs of its market, we never-
       theless have concerns about whether the appropriate priorities
       have been set for the São Paulo Commercial Center and whether
       the center may be missing opportunities to fully implement the
       commercial center program. We believe that the problems are
       caused by the post’s priorities for its center differing from those
       set by US&FCS headquarters for the overall center program, and
       the lack of adequate oversight and support from US&FCS
       headquarters to help ensure that the program is successful and
       complies with the requirements outlined in the program’s
       authorizing legislation.

l      Minority business position needs further refinement and
       proven results. The post’s minority business development
       commercial assistant position is not well integrated with the
       Department’s minority business activities. In addition, the position
       has inadequately defined responsibilities that appear to overlap
       with those of other trade specialists at the post. We also question
       whether São Paulo is the appropriate location for the position and
       whether there is sufficient market potential and results to justify
       continuing it.

l      Improved coordination between the post and other stake-
       holders is needed. Opportunities for good working relationships
       between US&FCS Brazil and other federal and ITA components,
       as well as with some host country organizations, are not being
       fully exploited and appear to be highly dependent upon personal
       relationships. The post’s relationships with other embassy officials
       were generally positive. However, it needs to improve its relation-
       ships with the US&FCS domestic offices.

l      Market research and product timeliness need to be made
       higher priorities. We identified two important core US&FCS
       products that need to be emphasized and improved. First, the post
       is not producing timely responses to Agent/Distributor Service
       requests, and there is some question about the overall quality of
       the responses. Second, the post is not consistently producing high-
       quality market research reports and is significantly behind schedule
       in producing some of these reports.

Commerce OIG Semiannual Report
September 1999
                                                                                           39
International Trade Administration


                         l       Financial management, procurement, and internal controls
                                 need significant attention. We observed a pervasive lack of
                                 adequate financial management practices and internal controls in
                                 the post’s operations. We noted significant management control
                                 weaknesses in the handling of cash, use of purchase orders,
                                 inventory and management of government personal property,
                                 credit card transactions, the management of a large information
                                 technology contract, and documentation of the use of government
                                 vehicles.

                             We made a number of recommendations to address our concerns.
                         Although US&FCS agreed with the vast majority of our observations and
                         recommendations and noted areas where changes and improvements had
                         been made since our visit, it also identified a number of areas where it
                         disagreed with our report’s analysis. We requested that US&FCS provide
                         an action plan addressing any outstanding issues noted in the report.
                         (Office of Inspections and Program Evaluations: IPE-10916)

                         South Africa

                             South Africa is reportedly the most advanced, broadly based, and
                         productive economy in Africa. Its gross domestic product (GDP) is nearly
                         four times that of Egypt, its nearest competitor on the continent. Some
                         experts suggest, however, that the South African economy must strive for
                         an annual GDP growth rate of 5 to 10 percent to offset its high unemploy-
                         ment rate and an annual population growth rate of 2 percent. Efforts to
                         achieve this economic growth will provide opportunities for American
                         companies with appropriate products or services.

                              American companies already have a strong presence in South Africa.
                         U.S. exports to the country totaled $3 billion in 1997, and South Africa
                         was the recipient of approximately 47 percent of all American exports to
                         Sub-Saharan Africa. Because of South Africa’s importance as a trading
                         partner, ITA has three offices in the country (Johannesburg, Cape Town,
                         and Durban) to provide American exporters with products and services
                         that will help them establish or expand their presence not only in South
                         Africa, but in other southern African nations as well. The post was
                         allocated $1.4 million in FY 1998, an increase of more than 40 percent
                         from FY 1997.

                              The OIG’s inspection of US&FCS South Africa found that clients
                         were generally satisfied with the trade promotion efforts of the post’s staff.
                         In addition, the commercial center was highlighted by many of the post’s
                         clients as an effective forum for U.S. companies and government officials
                         to launch their new initiatives, agendas, or products. Although the post was

                                                                     Commerce OIG Semiannual Report
40                                                                                  September 1999
                                                             International Trade Administration


generally effective at promoting U.S. exports to South Africa, we found
several aspects of the post’s promotional and administrative operations that
require management attention:

l       The post’s effectiveness has been limited by programmatic
        and organizational problems. Specifically, staff productivity was
        hampered by inefficient work assignments given to foreign service
        nationals and personal services contractors, relations between the
        post and ITA’s Advocacy Center were not as strong as possible,
        and client and partner data were not being routinely entered into
        the Client Management System.

l       Despite showing promise, the commercial center is not
        actively recruiting partners. Although the center was pursuing its
        objectives of providing a variety of products and services to
        facilitate commercial ties and trade, it had not fully embraced
        ITA’s goal to include partners in the center. In addition, although
        the center had two collocated partners, a reimbursable agreement
        or memorandum of understanding was not in place for the short-
        term partner, and the agreement with the year-long partner was
        not adequately monitored. Finally, the officer hired as center
        director was frequently pulled away from his responsibilities at the
        center to handle work related to the many high-level visitors to the
        post or other post business.

l       Staff turnover resulted in potential leadership void. With the
        scheduled turnover of all Johannesburg officers within a seven-
        month period, the post faced a serious leadership void at the time
        of our inspection. Only at the last minute were officer positions
        filled or incumbents selected. By not better planning to fill
        upcoming vacancies, US&FCS headquarters could jeopardize
        mission goals and undermine staff morale.

l       Financial operations need improvement. Although the post had
        taken steps to get its financial operations in order, we found the
        imprest fund to be in dire need of management attention. In
        addition, our review of the post’s financial records revealed
        substantial unliquidated obligations in its operations and adminis-
        tration account. We also found little correlation between the post’s
        FY 1998 collections records and official ITA accounting data.

l       Several administrative matters require management attention.
        The post handled procurement, time and attendance, and vehicle
        control logs in accordance with policies and procedures. However,
        we observed that personnel records were not complete or updated,

Commerce OIG Semiannual Report
September 1999
                                                                                            41
International Trade Administration


                                 credit cards were underutilized, and the division of administrative
                                 service responsibilities between the State Department and
                                 US&FCS South Africa was unclear. We concluded that many of
                                 the post’s financial and administrative problems stemmed from a
                                 lack of sufficient training for both foreign service nationals and
                                 American staff.

                         l       Export control checks were handled well, but guidelines were
                                 not always followed. We were generally impressed with the
                                 thoroughness of the end-use checks conducted by the post to
                                 assist BXA in fulfilling its export control responsibilities. However,
                                 some improvements were needed to comply with BXA guidelines,
                                 and more coordination with other embassy offices would enhance
                                 information gathering.

                             We made several recommendations to ITA and US&FCS to resolve
                         our concerns. Agency officials generally agreed with our findings and
                         outlined steps US&FCS was taking or planned to take to address our
                         recommendations. (Office of Inspections and Program Evaluations:
                         IPE-11433)

                         US&FCS Is Addressing Foreign Service
                         Personnel Management Issues
                              The Omnibus Trade and Competitiveness Act of 1988 directs the OIG
                         to conduct periodic audits of US&FCS operations that include an
                         evaluation of the agency’s management of its foreign service personnel
                         system and the placement of domestic- and foreign-based personnel. To
                         fulfill the act’s requirements, the OIG conducted an audit of US&FCS’s
                         management of its personnel system and resource allocation methodology.
                         Our review evaluated a broad range of personnel issues, including the
                         management and oversight of the personnel system, recruitment, assign-
                         ments, limited appointments, tours of duty, curtailments, and performance
                         appraisals. We also looked at the status of US&FCS’s overseas and
                         domestic resource allocation models.

                              We found that US&FCS is generally striving to address its personnel
                         issues. Specifically, US&FCS has established internal task forces involving
                         diverse groups of employees to address issues of concern to foreign
                         service officers, and has taken action to comply with most prior OIG
                         recommendations. For example, it revised its overseas resource allocation
                         model in response to a 1997 OIG inspection report (see September 1997
                         issue, page 27). Based on the revised model, US&FCS completed a review
                         of its overseas officer staffing pattern and shifted resources accordingly.


                                                                     Commerce OIG Semiannual Report
42                                                                                  September 1999
                                                                 International Trade Administration


     Although US&FCS has addressed a variety of personnel issues,
several areas still need improvement. Specifically, US&FCS had difficulty
filling vacancies in hardship posts and adhering to the guideline requiring
officers to have a domestic assignment at least every 15 years, continued
to waive or lower language proficiency requirements when no candidates
met the existing requirements, had not implemented a comprehensive
automated system for personnel data, had yet to consolidate certain
personnel functions with ITA as we recommended earlier, and had not
defined adequate performance measures for its foreign service personnel
system to comply with the Government Performance and Results Act.

     Among our recommendations were that US&FCS (1) develop and
implement a formal career candidate recruitment policy, (2) implement
new measures to meet the 15-year guideline for domestic assignments,
(3) explore, with ITA management, consolidating personnel functions that
are common to the foreign and civil service personnel systems, (4) estab-
lish performance goals and related performance measures that specifically
define foreign service personnel system outcomes, and (5) update the
domestic resource allocation model for use as the objective analytical basis
for allocating domestic resources. ITA generally agreed with our findings
and recommendations. (Business and Trade Audits Division: BTD-10829-
9-0001)

Financial Assistance Program
Promotes Merit-Based Decisions
    As part of its Department-wide review of Commerce discretionary
financial assistance programs, the OIG conducted a performance audit of
ITA’s Special American Business Internship Training Program (SABIT).
The objective of our review was to assess the criteria, procedures, and
practices used for the solicitation, review, and selection of applications for
financial assistance under SABIT.

     SABIT provides financial assistance to for-profit and nonprofit public
and private entities for training business executives and scientists from the
Newly Independent States of the former Soviet Union in the American
way of doing business. In FY 1997, the program received 64 applications
for assistance, and issued 28 new awards and 5 renewals totaling more
than $500,000.

    We found that the program used merit-based technical and public
policy criteria to evaluate applications, and that its solicitation efforts in
FY 1997 generated a widespread response from eligible applicants. ITA
also followed established requirements for selecting applications for


Commerce OIG Semiannual Report
September 1999
                                                                                                43
International Trade Administration


                         funding under SABIT. However, one of the four review panels used during
                         the evaluation process was not independent of program administration.
                         ITA corrected the problem in 1997 and provided information demon-
                         strating that all subsequent review panels were independent. (Atlanta
                         Regional Office of Audits: ATL-10998-9-0001)




                                                                 Commerce OIG Semiannual Report
44                                                                              September 1999
           National Oceanic and
      Atmospheric Administration

Planned Consolidation at Norman,                                               The National Oceanic and
Oklahoma, Needs Refinement                                                     Atmospheric Administration
                                                                               studies climate and global change;
    NOAA leases approximately 106,000 square feet of space on the              ensures the protection of coastal
North and South campuses of the University of Oklahoma, in the city of         oceans and the management of
Norman, at a cost of about $1 million per year. NOAA’s space on the            marine resources; provides
                                                                               weather services; and manages
North Campus consists of about 72,000 square feet in Building 600, the
                                                                               worldwide environmental data. It
Adair Building, and several temporary buildings, which house the National      does this through the following
Severe Storms Laboratory, the Storm Prediction Center, the weather             organizations:
forecast office, and part of the NEXRAD Operational Support Facility           National Weather Service. NWS
(OSF). On the South Campus, NOAA leases about 34,000 square feet in            reports the weather of the United
the OSF South Building, which houses the remaining OSF staff.                  States and provides weather
                                                                               forecasts and warnings to the
    In December 1998, program officials briefed NOAA’s senior                  general public.
management on a proposal for consolidating NOAA’s operations in two            National Ocean Service. NOS
new buildings, totaling 145,500 square feet, with annual lease and utility     issues nautical and aeronautical
                                                                               charts; performs geodetic surveys;
costs of about $5 million per year. Because the submitted proposal did not
                                                                               conducts research; and develops
include the required functional requirements analysis, it has not yet          policies on ocean mining and
received final NOAA or departmental approval. NOAA has since                   energy.
contracted with an architectural and engineering firm to provide this          National Marine Fisheries
detailed information for its revised decision package.                         Service. NMFS conducts a
                                                                               program of management,
     NOAA believes that collocating its Norman components with the             research, and services related to
university’s meteorological research groups and its school of meteorology      the protection and rational use of
would provide substantial benefits for both organizations. Collocation         living marine resources.
would create a joint NOAA-university weather center and give NOAA              National Environmental Satellite,
                                                                               Data, and Information Service.
staff access to the university’s facilities and personnel, whose expertise
                                                                               NESDIS observes the environment
could contribute significantly to the development of new forecast              by operating a national satellite
technologies.                                                                  system.
                                                                               Office of Oceanic and
    The OIG conducted an assessment of NOAA’s justification for the            Atmospheric Research. OAR
proposed Norman consolidation. Because the bureau had not completed a          conducts research related to the
functional requirements analysis, we did not perform a detailed audit of its   oceans and inland waters, the
space needs. Instead, we opted to review NOAA’s preliminary proposal in        lower and upper atmosphere,
order to give the bureau feedback on its process for consolidation and to      space environment, and the Earth.
identify potential areas for future detailed audit work. After reviewing       Office of NOAA Corps
                                                                               Operations. The Corps is the
NOAA’s proposal, we made some observations about how the bureau
                                                                               nation’s seventh uniformed
could reduce the cost of the proposed consolidation.                           service. Its ships, aircraft, and
                                                                               personnel support NOAA’s
l       Savings would be realized by continuing to lease the North             activities throughout the world.
        Campus buildings. We asked NOAA about the possibility of
        using Building 600 and the Adair Building to consolidate all OSF
        staff on the North Campus. NOAA officials agreed that this could
        be done, but noted that Building 600 would need renovations,


Commerce OIG Semiannual Report
September 1999
                                                                                                              45
National Oceanic and Atmospheric Administration


                                                which university officials estimate would cost between $100,000
                                                and $200,000. We believe that adopting this approach will save
                    NOAA                        NOAA about $600,000 a year, or $12 million over 20 years.
                                                Because of the potential savings from using both North Campus
                                                facilities, NOAA should consider constructing only one new
     National               National
     Weather                Ocean               facility to consolidate the National Severe Storms Laboratory, the
     Service                Service             Storm Prediction Center, and the weather forecast office with the
                                                university, while continuing to lease Building 600, the Adair
    National                                    Building, and the NEXRAD facility.
 Marine Fisheries           NESDIS
     Service
                                        l       Building 600 is severely overcrowded. As a result, some NOAA
 Oceanic and                NOAA
                                                staff are being housed in temporary structures, there is insufficient
 Atmospheric                 Corps              space for research and engineering functions, and workstations
  Research                 Operations           are very small. Nevertheless, the facility was in generally good
                                                condition, and university officials stated that if NOAA decided to
                                                stay, they would work to improve the facility.

                                        l       Adair Building has sufficient space. The building is in overall
                                                good condition and there is no overcrowding. However, some
                                                areas should be reconfigured for better use if NOAA personnel
                                                continue to occupy the building.

                                        l       South Building is not crowded, but consolidation of OSF on
                                                the North Campus is desirable. The OSF South Building is not
                                                large enough to consolidate all OSF staff, and consolidating the
                                                staff from the North Campus there would hinder OSF in its
                                                mission of supporting the NEXRAD radar module, which is
                                                located on the North Campus. Relocating the radar would cost
                                                more than $2 million. In addition, the OSF director strongly
                                                supports consolidating all his staff on the North Campus, because
                                                the current separation hampers operational efficiency.

                                        l       Collocation on the South Campus would be costly. NOAA’s
                                                proposal to collocate with the university would result in lease costs
                                                of about $38 per square foot. This relatively high cost results
                                                largely from the university’s policy of building high-quality struc-
                                                tures to last 100 years. As the current OSF South Building costs
                                                about $11 per square foot to lease, the proposed rate would result
                                                in NOAA paying about 3½ times as much per square foot. This
                                                substantial cost increase may outweigh the benefits of collocation.

                                            We recommended that NOAA (1) complete a functional requirements
                                        analysis to accurately determine the space requirements for the Norman
                                        consolidation, (2) evaluate the alternative of building and leasing only one
                                        building and continuing to lease Building 600 and the Adair Building on the

                                                                                   Commerce OIG Semiannual Report
46                                                                                                September 1999
                                  National Oceanic and Atmospheric Administration


North Campus, and (3) explore ways of reducing the $38 per square foot
rate to lease a new building to be constructed on the South Campus.

     NOAA agreed with all three of our recommendations and said that it
had already taken action to implement the first two. In response to the
third recommendation, NOAA stated that it now plans to capitalize the
construction of new and renovated space instead of leasing the facilities.
As a result, we believe that NOAA’s planned action should focus on
lowering the cost of the proposed construction. We plan to continue
monitoring NOAA’s construction cost estimates and supporting documen-
tation. (Science and Technology Audits Division: STD-10900-9-0001)

Fishermen’s Contingency Fund
Needs to Be Reassessed
    Title IV of the Outer Continental Shelf Lands Act Amendments of
1978 established the Fishermen’s Contingency Fund to compensate U.S.
fishermen whose vessels or fishing gear have been lost, damaged, or
destroyed by oil and gas obstructions on the U.S. Outer Continental Shelf.
The compensation covers both economic and property loss. The fund is
administered by NOAA’s National Marine Fisheries Service (NMFS) and is
funded by fees assessed against oil and gas companies operating mainly in
the Gulf of Mexico. For the fiscal year ended September 30, 1998, the
fund paid 54 claims totaling $322,000, and had a balance of $1.5 million.

     NMFS develops filing and reporting requirements for fishermen,
adjusts claims, and compensates eligible applicants. To address concerns
about the fund’s internal controls, NMFS conducted a review in May 1992
and made recommendations designed to improve the fund’s controls and
efficiency. Before that review, the fund had a history of fraudulent claims
paid due to internal control deficiencies.

    The OIG conducted an audit to evaluate the effectiveness of NMFS’s
internal controls over the fund and to assess the trend of paid claims. We
found that past problems had been corrected, internal controls were
properly in place, and recommendations made by NMFS in its 1992
review were being adhered to.

     We also noted that there has been a significant decline in the average
total dollar amount of claims paid over the past 11 years. The average
annual total of paid claims was $713,000 in FYs 1988-91, dropped to
$513,000 in FYs 1992-94, and declined further to $264,000 in FYs
1995-98 (see following chart). The fund’s manager attributed the decline
to several factors, including NMFS’s vigorous referral of questionable


Commerce OIG Semiannual Report
September 1999
                                                                              47
National Oceanic and Atmospheric Administration



                               Fishermen’s Contingency Fund
                         Average Annual Dollar Amount of Claims Paid
                                    Fiscal Years 1988-98
                        $800,000
                        $700,000
                                     $713,000
                        $600,000
                        $500,000
                                                        $513,000
                        $400,000
                        $300,000
                        $200,000                                            $264,000
                        $100,000
                               $0
                                          1988-91             1992-94              1995-98
                                                            Fiscal Years
                                                    White text

                       cases to the OIG for investigation, which has served as a deterrent to
                       fraudulent claims; claimants seeking compensation from a state program;
                       and the declining number of shrimp vessels because of overfishing and
                       smaller profits. In response to this decline, NMFS has reduced the number
                       of staff required to administer the fund. But the sharp decline in the dollar
                       amount of paid claims raises the issue of the long-term need for the fund.

                           We recommended that NMFS reexamine whether there is sufficient
                       need for maintaining the fund within the agency. NOAA agreed with our
                       findings and recommendation and will conduct a study regarding the
                       continued need for the program. (Science and Technology Audits
                       Division: STD-11484-9-0001)

                       Risks Are Low, but Additional Steps Are Needed
                       to Ensure Y2K Compliance at NESDIS
                           As part of its review of the efforts by the Department and its bureaus
                       to ensure year 2000 (Y2K) compliance for critical Commerce computer
                       systems, the OIG conducted an inspection of the National Environmental
                       Satellite, Data, and Information Service’s (NESDIS) efforts to make its
                       automated information systems Y2K compliant and to develop contin-
                       gencies in the event that these systems fail as a result of the year 2000 date
                       change.

                                                                   Commerce OIG Semiannual Report
48                                                                                September 1999
                                   National Oceanic and Atmospheric Administration


    We concluded that the likelihood of NESDIS satellite operations and
satellite data processing being interrupted due to Y2K failure is low
because the agency exercised stringent quality control over system
renovations and conducted thorough end-to-end tests. Also, because
NESDIS’s systems use year data infrequently, they have a low
susceptibility to Y2K failures.

    However, we expressed concern that NESDIS had not completed its
system inventory, which raised doubt that all systems had been evaluated
for Y2K compliance. As a result, at least one system that should have
been tested for compliance—the Telemetry Acquisition and Command
Transmission System—was not. NESDIS agreed to complete its inventory
and evaluate any new systems found for Y2K compliance.

     We also found that NESDIS needs to significantly improve and ensure
the accuracy of its business continuity and contingency plans. Although
NESDIS has standard procedures for handling problems with its satellite
operations and satellite data processing, the agency did not augment them
with contingencies for Y2K-specific failures. The agency did not plan to
test Y2K-specific contingencies and was instituting only limited procedures
for reducing risk with computer operations for the days surrounding the
century change (referred to as a “Day One Plan”). NESDIS has agreed to
update its continuity and contingency plans and to prepare a Day One
Plan.

    NESDIS has informal procedures for managing the risk of introducing
changes to operational systems, but it has not established an official policy
for managing changes to systems that have been confirmed to be Y2K
compliant. OMB has directed agencies to establish a policy limiting
changes to Y2K-compliant systems so that compliance can be maintained.
NESDIS has agreed to establish such a policy. Finally, we found several
minor deficiencies in the system renovation process.

    We made several recommendations to address our concerns. NESDIS
agreed with all of our recommendations and has taken or plans to take
actions to address them. (Office of Systems Evaluation: OSE-12199)

Reviews of NOAA Discretionary Funding
Programs Show Mixed Results
    During this semiannual period, the OIG issued reports on its audits of
the criteria, procedures, and practices for soliciting, reviewing, and select-
ing applications in FY 1997 for awards under three NOAA discretionary
financial assistance programs:


Commerce OIG Semiannual Report
September 1999
                                                                                 49
National Oceanic and Atmospheric Administration


                       l       Meteorologic and Hydrologic Modernization Development
                               Program (National Weather Service).

                       l       Marine Fisheries Initiative Program (National Marine Fisheries
                               Service).

                       l       Fisheries Development and Utilization Research and Development
                               Grants and Cooperative Agreements Program (National Marine
                               Fisheries Service).

                           The audits were conducted as part of a Department-wide review of
                       Commerce’s discretionary financial assistance programs. As discussed
                       below, the three programs had varying degrees of success in utilizing
                       processes designed to result in merit-based selections of applications for
                       funding.

                       Meteorologic and Hydrologic Modernization
                       Development Program

                           The Meteorologic and Hydrologic Modernization Development
                       Program provides financial assistance to entities for the use and develop-
                       ment of meteorological or hydrological forecasts or forecast methodology.
                       During FY 1997 (our review period), the program awarded two new
                       cooperative agreements, two new grants, two continuation amendments to
                       existing cooperative agreements, and one grant renewal, for a total of more
                       than $4.9 million.

                            We found that NWS did not administer the program as a competition-
                       based financial assistance program as prescribed by Commerce guidelines.
                       Instead, recipients were selected on a non-competitive, sole-source basis.
                       In addition, the written justifications for program awards did not cite any
                       factual basis for the routine assertions that the applicants were the only
                       entities that could perform the work.

                            We recommended that NWS ensure that program awards are made
                       through a competitive process, unless otherwise mandated by law or
                       adequately justified, and that the award process comply with Department
                       policies and procedures and include the following four elements:
                       (1) widespread solicitation of eligible applications and disclosure of
                       essential application and program information in written solicitations,
                       (2) independent application reviews that consistently apply written program
                       evaluation criteria, (3) written justifications for award decisions that
                       deviate from recommendations made by application reviewers, and
                       (4) adequate written justifications for noncompetitive awards that
                       document appropriate market search efforts to validate determinations that

                                                                  Commerce OIG Semiannual Report
50                                                                               September 1999
                                   National Oceanic and Atmospheric Administration


there is only one source for anticipated sole-source awards. We also
recommended that NOAA’s Grants Management Division perform reviews
of proposed noncompetitive awards to determine whether they meet
Department and NOAA requirements.

     In response to our report, NOAA agreed that more awards should be
made competitively in its discretionary funding programs and that a more
rigorous solicitation process should be used. NOAA said that it is continu-
ing to look at its processes and will provide more detail as part of its audit
action plan for this report. (Atlanta Regional Office of Audits: ATL-11405-
9-0001)

Marine Fisheries Initiative Program

     The Marine Fisheries Initiative Program provides financial assistance
for research and development projects that provide information for the full
and wise use and enhancement of fishery resources in the southeastern
United States. In FY 1997, the program received 73 applications for over
$7.6 million in financial assistance and awarded 11 grants totaling more
than $915,000.

    We found that program officials had developed and published
appropriate merit-based criteria for use in evaluating financial assistance
applications for funding, and that the application solicitation, review, and
selection process followed by the program is designed to promote merit-
based funding decisions.

    However, we found that some of the program’s review and selection
practices needed improvement. Specifically, we recommended that
program officials keep a record of the scientific panel’s vote count, and
maintain adequate documentation of the bases for award decisions that
deviate from the independent panel’s recommendations. NOAA concurred
in our findings and recommendations, and it has agreed to begin imple-
menting them with the program’s next selection process. (Atlanta Regional
Office of Audits: ATL-11655-9-0001)

Fisheries Development and Utilization Research and
Development Grants and Cooperative Agreements Program

     Commonly known as the S-K Program, this program provides finan-
cial assistance for research and development projects that address various
aspects of U.S. fisheries, including harvesting, processing, marketing, and
associated infrastructure. In FY 1997, NMFS made 75 financial assistance
awards totaling more than $8 million under this program.


Commerce OIG Semiannual Report
September 1999
                                                                                 51
National Oceanic and Atmospheric Administration


                            We found that the S-K Program had criteria that were merit-based and
                       appropriate for selecting applications for funding, and that the application
                       solicitation process was adequate to obtain a nationwide response. How-
                       ever, selection decisions that deviated from application rankings were not
                       adequately justified and documented, and we believe that NMFS could
                       have relied more extensively on competitive program applicants to meet its
                       research needs.

                            We recommended that NMFS ensure that reasons for selecting
                       applications ranked lower than other applications are thoroughly docu-
                       mented. Additionally, NMFS officials need to place more emphasis on
                       addressing research needs and priorities competitively, and ensure that
                       program funding priorities are developed and published in detail to provide
                       the public an opportunity to address the agency’s specific research needs.
                       NOAA agreed with our recommendations and believes that implementation
                       of the recommendations will enhance the program’s overall effectiveness.
                       (Seattle Regional Office of Audits: STL-10950-9-0001)

                       Improved Internal Controls Needed over
                       Mountain Support Center Bankcard Program
                           As part of its periodic review of Commerce units’ use of bankcards,
                       the OIG conducted an audit of FY 1998 bankcard activities at NOAA’s
                       Mountain Administrative Support Center in Boulder, Colorado. The
                       purpose of our audit was to determine whether the center was properly
                       using bankcards in accordance with applicable federal and departmental
                       requirements. The audit involved reviewing a stratified sample of 67 of the
                       center’s 1,240 transactions for FY 1998.

                            The objectives of the bankcard program, established government-wide
                       in 1989, are to reduce administrative procurement costs, improve cash
                       management by expediting and simplifying small purchases, and strengthen
                       internal controls to eliminate the vulnerabilities to fraud and abuse of other
                       small purchase methods. For the most part, these goals have been
                       achieved at the center.

                            Although we did not identify any specific misuse of funds, our audit of
                       the center’s bankcard program disclosed a number of weaknesses in
                       internal controls and instances of noncompliance with federal regulations
                       and departmental guidance. These weaknesses need to be corrected to
                       improve internal controls over the bankcard program. Specific problems
                       included the failure to provide cardholders with required training,
                       document alternate approving officials, complete property transaction
                       forms, promote competition for purchases over $2,500, pre-approve


                                                                   Commerce OIG Semiannual Report
52                                                                                September 1999
                                   National Oceanic and Atmospheric Administration


significant purchases, maintain a purchase order log, keep bankcards in a
secure location, follow the priority order of mandatory sources of supply,
and reconcile questioned items.

    We made recommendations to center officials to address these internal
control deficiencies. NOAA agreed with our findings and recommenda-
tions. (Denver Regional Office of Audits: DEN-11927-9-0001)

Grantee Failed to Comply with Fishing Industry
Award and Produced Limited Project Results
    In February 1995, NOAA awarded a grant of nearly $655,000 to a
Massachusetts firm as part of the agency’s Fishing Industry Grant
program. This program assists the depressed northeastern fishing industry
by providing financial assistance to fishermen, processors, and fishermen’s
associations, and to recipients who assist or train fishermen in research and
management activities for marine and estuarine resources. The grant,
intended to fund a demonstration project on raising flounder on land,
required the recipient to build and equip a hatchery on the New England
coast to produce 120,000 young flounder over the 18-month project
duration. The recipient was to contribute about $447,000 to the project,
bringing the total budget to $1,102,000.

     In a financial and compliance audit, the OIG found that the grantee
had achieved only limited results from the award because it materially
failed to comply with the terms and conditions of the grant agreement.
Specifically, the grantee built and equipped a hatchery at its own inland
location rather than at either of the NOAA-approved coastal locations,
provided only half of the required young flounder (which it purchased,
rather than raised), and failed to provide the requisite training and transfer
of technological expertise. In addition, the grantee did not maintain a
financial management system that complied with federal cost accounting
standards.

    As a result of these deficiencies, we questioned about $190,000 in
costs related to the hatchery being operated at the unapproved location and
another $490,000 related to financial management deficiencies, for a total
of about $680,000 in questioned costs. We recommended that NOAA
disallow all project costs claimed, terminate the grant, and recover the full
$655,000 in grant funds disbursed to the recipient. (Atlanta Regional
Office of Audits: ATL-10729-9-0001)




Commerce OIG Semiannual Report
September 1999
                                                                                 53
National Oceanic and Atmospheric Administration


                       Investigations in Brief

                       Sentencing. In the March 1999 issue (page 59), we reported the convic-
                       tion of a Florida fisherman and his wife for conspiracy to defraud the
                       government through the filing of false claims under the Gulf of Mexico
                       Fisheries Disaster Program. In June 1999, they were each sentenced in
                       U.S. District Court for the Northern District of Florida to three years’
                       probation, and ordered to make restitution of $4,978. (Denver Field
                       Office of Investigations)

                       Conviction. On September 24, 1999, a former NOAA employee was
                       convicted of one count of theft of government property after an OIG
                       investigation disclosed that she had obtained more than $7,000 from an
                       agency imprest fund by submitting 57 false vouchers for payment.
                       Sentencing is scheduled for December 1999 in U.S. District Court for the
                       District of Maryland. (Financial Fraud Division)

                       Resignation. An NMFS enforcement agent resigned from federal service
                       to resolve a Merit Systems Protection Board appeal of his proposed termi-
                       nation, which was based upon his acceptance of $500 from a commercial
                       fisherman. After initially denying the charge to OIG investigators, the agent
                       was confronted with a copy of a canceled check bearing his signature and
                       acknowledged that he had accepted a “loan” from the fisherman, whose
                       business was subject to regulation under fisheries laws administered by
                       NMFS. (Silver Spring Field Office of Investigations)

                       Audit Reports Unresolved for Over Six Months
                           As of September 30, 1999, nine performance audit reports had
                       recommendations unresolved in excess of six months.

                       Light Aircraft Operations

                            The first unresolved performance audit report, Light Aircraft Fleet
                       Should Be Privatized, STD-9952-8-0001 (see September 1998 issue,
                       page 44), recommended that NOAA cease operating its eight light fixed-
                       wing aircraft and three helicopters and release them, along with related
                       spare parts. We also recommended that NOAA discontinue all interagency
                       reimbursable work related to NOAA-owned fixed-wing light aircraft and
                       helicopters. We added that, pending discontinuance of the reimbursable
                       work, NOAA should complete current interagency agreements in accor-
                       dance with its policy of full cost recovery; revise its billing practices to be
                       consistent with, and achieve, full cost recovery; and seek reimbursement
                       of the unrecovered full cost balances on all current reimbursable projects.


                                                                    Commerce OIG Semiannual Report
54                                                                                 September 1999
                                   National Oceanic and Atmospheric Administration


    NOAA did not concur with most of our findings and recommenda-
tions. The bureau believes that discontinuing use of the aircraft would
compromise its ability to continue uninterrupted data collection efforts
required to protect lives and property, and would increase the risk of
accidents and the cost of aircraft support. In addition, NOAA did not agree
with our recommendation to recover full costs, noting that cost sharing and
waiving of overhead costs is appropriate for interagency cooperative
agreements that are beneficial to NOAA, and that interagency agreements
have proved to be cost-effective in meeting some of its data collection
needs. NOAA officials have entered into a consulting contract to obtain an
analysis of its aircraft fleet. The analysis is to include a review of light
aircraft costs and the costs to contract for similar private-sector aircraft
services and support. NOAA also believes that our audit report overstated
the bureau’s aircraft costs by $1.3 million and that its light aircraft are cost
competitive.

    After reviewing NOAA’s audit action plan, we concurred with action
taken or planned for 4 of our 10 recommendations. However, we did not
believe that NOAA’s actions, or other information provided in the plan,
were sufficient to warrant a concurrence on the other six recommenda-
tions. In particular, we reaffirmed our conclusion that the full in-house cost
to operate NOAA’s fleet of 10 light aircraft averaged 42 percent more than
the cost to contract for similar private-sector aircraft that can provide
equivalent services. We also reaffirmed our conclusion that the Aircraft
Operations Center is not recovering the full cost of work that it performs
under reimbursable agreements with non-Commerce federal agencies. We
have proposed that after NOAA’s contracted review of its aircraft is
completed and the report issued, the bureau submit a revised audit action
plan addressing the unresolved recommendations.

NMFS Laboratory Structure

    The second unresolved performance audit report, NMFS Laboratory
Structure Should Be Streamlined, STL-8982-8-0001 (see March 1998
issue, page 39), recommended closing several laboratory facilities and
transferring their programs and personnel to other NMFS laboratories. We
also recommended that one laboratory and most of its programs be
transferred to the state of Maryland, and that the proposed Santa Cruz,
California, facility be expanded to accommodate programs and personnel
from another California laboratory. Our analysis indicated that our
recommended changes would result in increased efficiencies and cost
savings of more than $25 million over a five-year period.

    In addition, we differed with NMFS’s plans to transfer some programs
from a Seattle laboratory to the proposed Auke Cape facility in Alaska,

Commerce OIG Semiannual Report
September 1999
                                                                                   55
National Oceanic and Atmospheric Administration


                       because there is insufficient space at the proposed facility to accommodate
                       the programs and the costs associated with such a move would be in
                       excess of $20 million.

                           NOAA disagreed with our findings and recommendations. In April
                       1998, we requested NOAA to submit a revised audit action plan, and
                       subsequent meetings were held between OIG and NOAA officials. NOAA
                       submitted a revised plan in November 1998, but did not change its initial
                       position. Negotiations with NOAA concerning alternative approaches to
                       resolution are continuing.

                       NOAA’s Discretionary Funding Programs

                            The remaining seven unresolved performance audits relate to discre-
                       tionary funding programs in NESDIS, NMFS, NWS, and the National
                       Ocean Service. In each of these audits, we recommended that NOAA
                       ensure that financial assistance awards are made on the basis of a compe-
                       titive review and selection process, unless otherwise mandated by law or
                       adequately justified, and that the process complies with Department
                       policies and procedures.

                           NOAA generally agreed with our recommendations, and has submitted
                       an audit action plan that we are currently reviewing.




                                                                 Commerce OIG Semiannual Report
56                                                                              September 1999
    National Telecommunications
   and Information Administration

Internal Controls over                                                         The mission of the National
Bankcard Use Are Sound                                                         Telecommunications and
                                                                               Information Administration is to
    In conjunction with an OIG plan to periodically review Commerce            (a) serve through the Secretary of
units’ use of bankcards, we conducted an audit of NTIA’s FY 1998               Commerce as the principal
                                                                               executive branch advisor to the
bankcard activities to determine whether the bureau was properly using
                                                                               President on domestic and
bankcards in accordance with applicable federal and departmental               international communications and
requirements. Our audit covered over 1,100 transactions, totaling more         information policies, (b) ensure
than $680,000, made by NTIA headquarters during the year.                      effective and efficient federal use
                                                                               of the electromagnetic spectrum,
     We found that continued oversight by NTIA management, and by              (c) develop with other federal
NIST staff who provide contracting support to the bureau, has resulted in      agencies policies for international
sound internal controls over NTIA bankcard transactions. We also found         communications and standards-
that NIST personnel properly conducted the required annual review of           setting organizations, (d) serve as
bankcard use for 1998.                                                         the federal telecommunications
                                                                               research and engineering center,
                                                                               and (e) administer grants under
    However, we did note several minor internal control deficiencies           the Telecommunications and
requiring management action: (1) the large number of cardholders, coupled      Information Infrastructure
with the small percentage of purchasing power used, suggested that the         Assistance Program and the
number of cardholders should be reduced for greater efficiency, (2) several    Public Telecommunications
cardholders were not storing their cards in a secure location as required,     Facilities Program.
and (3) training for cardholders needed to be provided and documented.

    We made several recommendations to NTIA regarding these minor
deficiencies. NTIA agreed with all of our findings and recommendations
except the recommendation that it reduce the number of cardholders. The
agency believes that the current distribution of cardholders is appropriate                       NTIA
based on the needs of the program offices and has advantages for
management control. We continue to recommend that NTIA examine the                                                Policy
need to have so many cardholders to permit more efficient utilization of its      Spectrum
                                                                                                               Analysis and
                                                                                 Management
bankcards. (Business and Trade Audits Division: BTD-11549-9-0001)                                              Development


                                                                                Telecom. and                   Institute for
                                                                                 Information                    Telecom.
                                                                                Applications                    Sciences


                                                                                               International
                                                                                                  Affairs




Commerce OIG Semiannual Report
September 1999
                                                                                                                               57
                                      Patent and
                                      Trademark Office

The Patent and Trademark Office
                                      Patent Inventory, Printing, and
administers the nation’s patent and   Dissemination Issues Need Attention
trademark laws. Patents are
granted, and trademarks                   PTO’s Office of Patent Publications (OPP) ensures the production of
registered, under a system            individual patent documents and several related products for the benefit of
intended to provide incentives to     the bureau and its customers in its post-examination process. After patent
invent, to invest in research, to
                                      applications have been allowed by examiners, they are sent to OPP, which
commercialize new technology,
and to draw attention to inventions   oversees the complex process of image-capturing, printing, publishing, and
that would otherwise go unnoticed.    disseminating them around the world. OPP products include the weekly
PTO also collects, assembles,         Official Gazette, the official journal of issued patents and PTO notices;
publishes, and disseminates           the patent image file used to support the Automated Patent System; and
technological information disclosed   conversion files used to make microfilm copies of patents.
in patents.
                                           The OIG conducted an audit of OPP operations to identify the causes
                                      of the large inventory of patents in the post-examination process, review
                                      initiatives to reduce publishing time, review selected aspects of the printing
                                      process, and determine whether OPP is complying with significant laws
                                      and regulations applicable to the post-examination process. We concluded
                                      that management attention is needed in two areas.

                                      Actions Needed to Reduce the Large
                                      Inventory of Pending Applications

                                          Although OPP increased the number of patents processed annually by
                                      47 percent from FY 1993 to FY 1998, the inventory of patents awaiting
                                      final processing increased by 51 percent during that period. We found that:

                                      l       Despite increased productivity, a large inventory of allowed
                                              patents awaiting final processing still exists because the total
                                              number of patents allowed by examiners has increased each year,
                                              patents have not been processed by OPP until applicants pay issue
                                              fees, and OPP’s production capacity has been limited.

                                      l       OPP’s efforts to reduce the inventory have overburdened data
                                              compilation activities. Because of sustained increases in the size of
                                              the Official Gazette, OPP has not been able to deliver products to
                                              the database contractor in time for compilation.

                                      l       Late deliveries of processed patents to the printing contractor have
                                              delayed printing operations, although recent data indicates
                                              improvements in this area.

                                      l       Initiatives to improve the process may decease publishing time,
                                              but still may not meet PTO’s goals.


                                                                                  Commerce OIG Semiannual Report
58                                                                                               September 1999
                                                                      Patent and Trademark Office


    We recommended that PTO establish a plan to resolve these issues,
reduce the inventory, and publish patents within four weeks to meet the                    Patent and
goal set forth in its FY 1999 Corporate Plan. It should do this by assessing               Trademark
the effect on cycle time of processing files for publication before receiving                Office
fees, processing patents more rapidly for timely delivery to the database
                                                                                  Assistant            Assistant
contractor, assisting the database and printing contractors in meeting their    Commissioner        Commissioner
obligations on time, and considering further consolidation of the database       for Patents        for Trademarks
compilation and printing processes.
                                                                                 Associate                 Chief
                                                                                Commissioner            Information
Patent Dissemination Needs Streamlining, and the                                  and CFO                  Officer
Printing Contract Needs Increased PTO Oversight

    Having been designated by the Vice President as a “High Impact
Agency” directed to focus on using information technology and providing
customer service, PTO has established as one of its goals moving to a
paperless patent publishing process by FY 2003. However, we found that:

l       PTO spends an average of $1.5 million a year to print hard copies
        of the Official Gazette and produces microfilm products, although
        information from the Gazette is available at various locations on its
        Internet web site.

l       By law, the Government Printing Office (GPO) serves as OPP’s
        contracting agent for the procurement of printing services, but
        PTO is capable of providing such services more efficiently in-
        house. Since FY 1992, OPP has paid an average of $230,000
        annually in handling fees to GPO.

l       GPO and OPP may have approved the printing contractor’s
        claims of over $218,000 for overtime and other expenses incurred
        because of PTO’s late delivery of processed patents without
        adequately substantiating the claims or involving the onsite quality
        control specialist in key discussions with GPO and the contractor.

    We recommended that PTO (1) disseminate all patent-related
products, including the Official Gazette, on the Internet by the end of
FY 2003 and conduct customer surveys to determine which printed
products can be eliminated to reduce costs; (2) consider pursuing a waiver
from the Congress, or the necessary legislation, to independently handle its
own printing contract; (3) ask GPO to review the basis of the printing
contractor’s future claims of expenses incurred as a result of late patent
deliveries; and (4) involve the onsite quality assurance specialist more in
overseeing the database and printing contractors.

                          v     v    v     v    v

Commerce OIG Semiannual Report
September 1999
                                                                                                                      59
Patent and Trademark Office


                            PTO agreed with our recommendations and described a number of
                       measures it is taking to implement them. For example, PTO expects that a
                       new method of publishing patents will ultimately reduce the patent
                       publishing cycle time by 10 weeks. Other measures that PTO is taking or
                       will take to address our recommendations include eliminating delays in the
                       delivery of magnetic tapes to the database contractor, meeting weekly with
                       the contractor to resolve problems, initiating a customer survey to deter-
                       mine which products may be eliminated under a move to paperless patent
                       dissemination, and strengthening the role of the onsite quality assurance
                       specialist. (Business and Trade Audits Division: BTD-10996-9-0001)

                       Additional Steps Needed to
                       Better Ensure Y2K Compliance
                           As part of its review of efforts by the Department and its bureaus to
                       ensure year 2000 compliance for critical Commerce computer systems, the
                       OIG conducted an inspection of PTO’s work to make its automated
                       information systems Y2K compliant. We found that PTO’s renovation and
                       replacement activities for selected critical systems resulted in Y2K compli-
                       ance, and that the systems were adequately tested.

                           However, PTO plans to significantly modify two of its most critical
                       and vulnerable systems—the Patent Application Location and Monitoring
                       system and the Trademark Reporting and Monitoring system—and
                       upgrade the operating system of the mainframe computer on which these
                       systems reside. The modifications and upgrade were to be completed in
                       September and October 1999, but PTO has no plans for comprehensive
                       retesting to ensure that the systems and computer remain Y2K compliant.

                            PTO believes that testing the units of software involved in these
                       systems will be sufficient to identify any Y2K problems that may be
                       introduced during the modifications and upgrade. But we believe that end-
                       to-end testing is necessary to verify that the combined units will work
                       together as an application, and that each application will function as
                       intended as a system or with other systems with which it interfaces. We
                       recommended that PTO freeze software changes to critical systems as of
                       November 30, 1999; then conduct an end-to-end test of the systems, the
                       mainframe computer, and critical interfaces; and keep all critical hardware
                       and software configurations frozen until at least the second week of
                       January 2000 to ensure that there are no Y2K operating difficulties.

                           We also found that PTO’s Y2K systems inventory may not be
                       complete. Based on the minimal response to an earlier survey of systems
                       users and the recent identification of an important system that was not


                                                                  Commerce OIG Semiannual Report
60                                                                               September 1999
                                                                    Patent and Trademark Office


previously inventoried, there is some doubt that all smaller PTO systems
developed by users have been inventoried and evaluated for Y2K
compliance. We recommended that PTO resurvey operational areas to
identify user-developed applications that are used in performing core
business processes.

    In response to our report, PTO agreed with all our recommendations
but one—it continues to believe that end-to-end testing of the modified
systems is unnecessary. (Office of Systems Evaluation: OSE-11693)

Problems with Interagency Agreements
Being Addressed by PTO Management
    PTO, like many other agencies, uses interagency agreements to obtain
goods and services through other federal agencies. From 1995 through
1997, PTO’s use of these agreements increased significantly to support its
information technology (IT) requirements. PTO has made extensive use of
interagency agreements, such as multiagency contracts and multiple award
schedule transactions, that are designed to streamline the acquisition of
goods and services by using contracts established by other agencies. PTO
employs these interagency agreements to have other agencies use their
contractors to purchase both IT and non-IT goods and services for PTO.

    As part of a Department-wide review of the use of interagency
agreements by Commerce bureaus, the OIG evaluated PTO’s policies,
procedures, and practices for its use of interagency agreements, multi-
agency contracts, multiple agency schedule contract transactions, and other
special agreements issued from August 1994 to March 1997. These
agreements totaled $49.4 million in PTO obligations and only $27,000
from other agencies.

    We found that PTO did not adequately plan and manage many of its
earlier IT interagency transactions. We later observed that PTO had taken
steps to implement stricter procedures and better management for its
agreements. PTO also significantly reduced its use of agreements, and
currently has listed only $4.7 million in IT interagency agreements.

    Specifically we found that:

l       PTO did not comply with some procurement laws, regulations,
        and best practices governing multiagency contracts and multiple
        award schedule transactions when using such transactions to
        support its IT development efforts.



Commerce OIG Semiannual Report
September 1999
                                                                                            61
Patent and Trademark Office


                       l       All of the IT-related interagency agreements issued before
                               February 1997 that we reviewed were missing fundamental docu-
                               mentation needed to ensure adequate control over the agreements.
                               Moreover, lacking a formalized interagency agreement manage-
                               ment process, PTO did not adequately control the activities of its
                               largest multiagency contracts providing agency, GSA’s Federal
                               Systems Integration and Management Center. But since 1997,
                               PTO has improved its management of IT interagency agreements.
                               These improvements include better documentation and more
                               proactive management, as well as a reduction in the use of
                               interagency agreements in favor of a single competitively awarded
                               multiple award task order contract.

                       l       None of the non-IT agreements we examined were reviewed by
                               the Department’s Office of General Counsel for legal sufficiency.
                               In addition, PTO had not conducted adequate analyses under the
                               Economy Act to determine whether it was in the government’s
                               best interest to enter into agreements. PTO has since implemented
                               guidelines that require General Counsel review of agreements
                               before issuance. PTO is also preparing Economy Act determina-
                               tions on those agreements subject to the act.

                       l       The PTO database used to track both IT and non-IT interagency
                               agreements was inadequate at the time of our review. Since then,
                               PTO has established a comprehensive database.

                       l       The Department lacked policies and procedures for multiagency
                               and multiple award schedule interagency transactions. The needed
                               guidance should specify qualitative standards of documentation
                               and minimum review thresholds.

                           We made recommendations to PTO and the Department to resolve
                       our concerns, recognizing that since 1997, PTO had taken a number of
                       measures that greatly improved its use and oversight of interagency and
                       other special agreements.

                            In response to our report, PTO officials generally agreed with our
                       findings and reiterated the changes that it has made in its policies and
                       procedures since 1997. The Department’s Office of General Counsel
                       agreed that better management of agreements and legal review will
                       improve the agreements process. And the Department’s Office of
                       Executive Assistance Management agreed to lead an effort with the Office
                       of Acquisition Management to prepare and issue a handbook detailing
                       departmental policies and procedures for interagency agreements. (Office
                       of Inspections and Program Evaluations: IPE-10728)

                                                                 Commerce OIG Semiannual Report
62                                                                              September 1999
                                           Technology
                                         Administration

Grant Process Designed to Promote Merit-Based                                   The Technology Administration
Funding Decisions, but Needs More Discipline                                    serves the needs of technology-
                                                                                based industry, advocates federal
     The OIG conducted an audit of the FY 1995 through 1997 criteria,           actions and policies to speed the
procedures, and practices for soliciting, reviewing, and selecting              transfer of technology from the
applications for financial assistance under NIST’s State Technology             laboratory to the marketplace, and
                                                                                removes barriers for commer-
Extension Program. The program provides financial assistance, through
                                                                                cializing new technologies by
cooperative agreements, to state governments and non-profit organizations       industry. It includes three major
to help states develop manufacturing assistance programs aimed at small         organizations:
and medium-sized manufacturers, and to help bring those state programs          Office of Technology Policy. OTP
to a performance level where they can provide the full range of manufac-        works to raise national awareness
turing extension services required by manufacturers. NIST administers the       of the competitive challenge,
program through its Manufacturing Extension Partnership office.                 promotes industry/government/
                                                                                university partnerships, fosters
     The OIG began an audit of NIST’s criteria, procedures, and practices       quick commercialization of federal
for the program in FY 1997, during which the agency made two awards of          research results, promotes
                                                                                dedication to quality, increases
$100,000 each. NIST has not made any program awards since FY 1997
                                                                                industry’s access to and partici-
and does not anticipate any future solicitations, as it considers the nation-   pation in foreign research and
wide network of manufacturing extension program centers to be complete.         development, and encourages the
                                                                                adoption of global standards.
    NIST had issued an open-ended solicitation for applications under the       National Institute of Standards
program in May 1995. After finding minor deficiencies in the solicitation,      and Technology. NIST promotes
review, and selection processes for the FY 1997 awards, we expanded the         U.S. economic growth by working
scope of our review to include all program funding awarded under the            with industry to develop and apply
original solicitation. NIST did not award program funding in FY 1995, but       technology, measurements, and
did make six awards totaling $552,000 in FY 1996.                               standards. NIST manages four
                                                                                programs: the Advanced Technol-
                                                                                ogy Program, the Manufacturing
    Our audit disclosed that although NIST developed and published              Extension Partnership Program, a
appropriate evaluation criteria for its FY 1995-97 program competitions, it:    laboratory-based measurement
                                                                                and standards program, and the
l       Did not comply with the Department’s requirement that a notice          National Quality Program.
        be placed in the Federal Register, at least annually, announcing        National Technical Information
        the availability of funds and specifying the criteria and process to    Service. NTIS is a self-supporting
        be used in selecting award recipients.                                  agency that promotes the nation’s
                                                                                economic growth and job creation
l       Did not properly screen proposals for compliance with published         by providing access to voluminous
        funding and award period requirements.                                  information that stimulates
                                                                                innovation and discovery. NTIS
                                                                                accomplishes this mission through
l       Could enhance the independence and objectivity of any future
                                                                                two major programs: information
        program competitions by using proposal reviewers from outside           collection and dissemination to the
        the program area.                                                       public, and information and
                                                                                production services to federal
    We made several recommendations to address our concerns. NIST               agencies.
agreed with our findings and recommendations. (Business and Trade
Audits Division: BTD-10961-9-0001)

Commerce OIG Semiannual Report
September 1999
                                                                                                                63
Technology Administration


                                    Management of NTIS Agreements
             Technology             Requires Additional Improvements
            Administration
                                        NTIS uses interagency and other special agreements to pursue its
                                    mission of being the federal government’s central clearinghouse for
                                    unclassified scientific, technical, engineering, and other business-related
     NIST                    NTIS   information. Through such agreements, NTIS acquires information from
                                    federal agencies, government contractors, and foreign governmental
                                    sources. NTIS’s collection of information exceeds 2.5 million works and
              Technology
                Policy
                                    includes business and management studies, research and development
                                    tools, and foreign and domestic trade statistics.

                                        As part of our Department-wide review of the use of such agreements,
                                    we evaluated the policies, practices, and procedures being followed by
                                    NTIS in preparing, reviewing, and managing its agreements. Overall, we
                                    found that NTIS properly uses agreements to support its mission.
                                    However, we identified several areas in need of improvement in the
                                    administration of agreements:

                                    l       Processes and procedures covering agreements need
                                            improvement. The agency lacks written policies and procedures
                                            for drafting agreements and does not ensure that they undergo
                                            sufficient legal review.

                                    l       Interagency agreement files need to be consolidated and
                                            organized. NTIS maintains two separate sets of files for its
                                            interagency agreements, resulting in record-keeping problems in
                                            both sets and poor management of its projects.

                                    l       Agreements database needs to be improved. Its current
                                            agreements database is difficult to use and requires special effort
                                            to produce reports and other information on its agreements.

                                    l       Joint venture agreements need improvement. We identified
                                            two issues related to NTIS’s joint venture agreements with private
                                            parties: First, the required business plans for joint ventures are
                                            inadequate and, in some cases, not prepared at all. Second, joint
                                            ventures are not being awarded through a process that adequately
                                            promotes competition.

                                         We recommended that NTIS (1) develop comprehensive guidelines for
                                    preparing all types of agreements and work with the Department’s Office
                                    of General Counsel to improve the legal review of agreements, (2) main-
                                    tain one complete set of records for each agreement in one location,


                                                                               Commerce OIG Semiannual Report
64                                                                                            September 1999
                                                                           Technology Administration


(3) redesign its database to be more user-friendly, and (4) for joint
ventures, create a comprehensive business plan for each project and
develop a more formal awards process that ensures full competition and
includes shorter agreement terms to further promote competition.

    NTIS generally agreed with the recommendations and has begun
coordinating with the Office of General Counsel on the legal review of
agreements. (Office of Inspections and Program Evaluations: IPE-11021)

NIST’s Policy of Allowing Employees to Bring
Firearms onto Its Campus Was Ill-Advised
     During our ongoing review of NIST’s plans for a proposed ballistics
testing facility and firearms qualification range on its Gaithersburg campus,
we became aware of a related issue—a NIST policy that allowed
employees to bring their recreational weapons onto the campus.

    Since at least 1975, NIST has granted some of its employees and
contractors permits to bring weapons and ammunition onto its
Gaithersburg campus for their personal, off-duty, and off-campus use.
Weapons approved include various models of hunting rifles, shotguns,
handguns, bows and arrows, martial arts weaponry, and assorted types of
ammunition. Under the policy, the weapons were to be kept unloaded,
encased (if handguns), secured in the employees’ vehicles, and not
removed while on the campus. In June 1999, when we conducted our
review, about 20 employees and contractors had NIST permits to carry
personal weapons and ammunition onto the campus.

     In a June 2, 1999, memorandum, we recommended that NIST cease
allowing its employees to carry weapons or ammunition onto its
Gaithersburg campus, unless the carrying of weapons is directly related to
their official duties, and cancel all permits. As our memo pointed out, in
addition to concerns about the appropriateness of this policy in terms of
safety, liability, and potential adverse publicity, this practice was in
apparent violation of federal criminal law, 18 U.S.C. § 930, which
generally prohibits the possession of firearms or other dangerous weapons
in a federal facility. Although NIST officials disagreed that the carrying of
weapons on the campus was prohibited by law, they agreed, on the basis
of policy considerations, to stop issuing new permits and cancel all existing
permits. (Office of Inspections and Program Evaluations)




Commerce OIG Semiannual Report
September 1999
                                                                                                 65
                                             Departmental Management

                                             Postsecondary Internship Program Award
                 CFO and                     Process Promotes Merit-Based Decisions
           Assistant Secretary
            for Administration
                                                 As part of its Department-wide review of discretionary financial
        Chief                                assistance programs, the OIG conducted an audit of FY 1997 and 1998
     Information                  Security
        Officer
                                             award criteria, procedures, and practices for soliciting, reviewing, and
                                             selecting applications for financial assistance under the Department’s
                                             Postsecondary Internship Program. The program, administered by the
                              Financial
       Budget
                             Management
                                             Office of Executive Budgeting and Assistance Management (OEBAM),
                                             offers college students the opportunity to obtain paid internships at the
                                             Department. During FYs 1997 and 1998, the program funded six new and
 Management                    Human         two amended awards, totaling more than $2.4 million.
     and                      Resources
 Organization                Management
                                                  Our audit disclosed that OEBAM developed merit-based evaluation
                                             criteria for evaluating applications for FY 1998 awards. It also properly
 Acquisition                        Civil
 Management                        Rights
                                             published a notice in the Federal Register soliciting applications for
                                             funding and further publicized the program through an announcement on
                                             its web site and other means. However, OEBAM:
                              Small and
 Administrative
                            Disadvantaged
  Operations
                            Business Util.   l       Made awards in FY 1997 using policies and procedures that did
                                                     not comply with departmental and federal requirements for the
                Exec. Budgeting                      competitive selection of financial assistance recipients.
                and Assistance
                 Management
                                             l       Had not properly documented its procedures for reviewing and
                                                     selecting applications for FY 1998 awards in a formal policy
                                                     statement or manual.

                                             l       Had not ensured that the program was included in the Catalog of
                                                     Federal Domestic Assistance for FY 1998.

                                                 We recommended that the Department document and disseminate
                                             program procedures for the review and selection of applications in a
                                             written policy statement, and consider including individuals from outside
                                             the Department on its review panels in order to enhance the independence
                                             of application reviews.

                                                  The Department agreed with our recommendations and plans to
                                             develop a written policy statement detailing the program’s review and
                                             selection procedures. In addition, the policy statement will include
                                             procedures to invite individuals from outside the Department to participate
                                             on program review panels. The Department also ensured that the program
                                             is now included in the Catalog of Federal Domestic Assistance. (Business
                                             and Trade Audits Division: BTD-11822-9-0001)



                                                                                       Commerce OIG Semiannual Report
66                                                                                                    September 1999
                                                                       Departmental Management


Natural Disaster Reduction Initiative Is
on Target, but Needs Better Reporting

     In December 1996, the Cabinet-level National Science and
Technology Council’s Subcommittee on Natural Disaster Reduction
established its national initiative for an interagency approach for the
strategic coordination and advancement of programs, strategies, and
research to reduce the social, environmental, and economic costs of
natural disasters. Along with the Department of Commerce, the initiative
included the Federal Emergency Management Agency, U.S. Geological
Survey, U.S. Army Corps of Engineers, National Science Foundation,
Environmental Protection Agency, and National Aeronautics and Space
Administration.

     In February 1998, the Department established its own initiative and a
strategic framework for Commerce partnerships in natural disaster
reduction. The Commerce strategy primarily involves the coordinated
efforts of NOAA, NIST, EDA, and BXA, with support from other
bureaus. A NOAA senior scientist serves as the Department’s principal
contact for the initiative and is the chairman of the Council subcommittee.

     The OIG completed an audit survey to determine what the bureaus
have done in responding to the Department’s initiative, assess the progress
made, and identify and recommend changes for improvement. We found
that the Commerce initiative was in consonance with the overall natural
disaster reduction plan. However, we noted that the initiative did not
provide for individual bureaus to report to the Department on the
accomplishment of established milestones and objectives. As a result, the
Department would not have adequate feedback to determine if the
initiative was being properly implemented and achieving the desired results.

    We recommended that the Department establish standard, periodic
progress reports for the bureaus. The Department agreed with our recom-
mendation, but expressed its belief that the reporting function should be
housed in NOAA, which plays the lead role in the initiative. We concurred
with that proposed course of action. (Science and Technology Audits
Division: STD-11600-9-0001)

Verification of Centralized Trial-Balance System
Data Supports Department’s Assertion
   In connection with the audit of the Department’s FY 1998
consolidated financial statements (see March 1999 issue, page 76), the
OIG performed certain procedures to verify financial data for the General

Commerce OIG Semiannual Report
September 1999
                                                                                            67
Departmental Management


                    Accounting Office and Department of the Treasury’s Financial
                    Management Service. Our verification was conducted to evaluate the
                    Department of Commerce’s assertion that the summarized federal
                    agencies’ centralized trial-balance system data provided by Treasury was
                    not consistent in all material respects with the Department’s FY 1998
                    consolidated statements. Our findings were in agreement with the
                    Department’s assertion, identifying differences between the data and the
                    consolidated statements. These differences existed because the data was
                    due to Treasury before the Department finalized the consolidated
                    statements. This is a direct result of the Department’s decision to extend
                    the timeline for submitting financial statements in order to receive an
                    unqualified opinion on its consolidated balance sheet. (Financial
                    Statements Audits Division: FSD-10899-9-0002)

                    Preaward Financial Assistance Screening
                         We continue to work with the Office of the Executive Budgeting and
                    Assistance Management, NOAA and NIST grant offices, and EDA
                    program offices to screen all of the Department’s grants, cooperative
                    agreements, and loans before award. Our screening serves two purposes:
                    It provides information on whether the applicant has unresolved audit
                    findings and recommendations on earlier awards, and it determines
                    whether a name check or investigation has revealed any negative history
                    on individuals or organizations connected with a proposed award.

                        During this period, we screened 1,563 proposed awards. On 33 of the
                    awards, we found major deficiencies that could affect the ability of the
                    proposed recipients to maintain proper control over federal funds. On the
                    basis of the information we provided, the Department delayed the awards
                    until concerns were satisfactorily resolved, established special award
                    conditions to adequately safeguard federal funds, or designated certain
                    recipients as “high risk” and required that disbursement of federal funds be
                    on a cost reimbursement basis, rather than allowing the awardees to draw
                    upon the funds at will.


                                         Preaward Screening Results

                                     Results                     Number           Amount
                      Awards delayed to resolve concerns            18           $21,495,060

                      Special award conditions established           8             8,883,249

                      Cost reimbursement basis required              7             3,914,200



                                                               Commerce OIG Semiannual Report
68                                                                            September 1999
                                                                         Departmental Management


Indirect Cost Rates

     Under OMB policy, a single federal agency—the “cognizant
agency”—is responsible for the review, negotiation, and approval of in-
direct cost rates for public and private entities receiving funds under
various federal programs. Normally, the federal agency providing the most
direct funding to an entity is designated as its cognizant agency. OMB has
designated Commerce as the cognizant agency for 280 economic devel-
opment districts, as well as a number of state and local government units.
From time to time, the Department also has oversight responsibilities for
other recipient organizations. The Department has authorized the OIG to
negotiate indirect cost rates and review cost allocation plans on its behalf.
The OIG reviews and approves the methodology and principles used in
pooling indirect costs and establishing an appropriate base for distributing
those costs to ensure that each federal, state, and local program bears its
fair share.

     During this period, we negotiated six indirect cost rate agreements with
non-profit organizations and governmental agencies, and reviewed and
approved eight cost allocation plans. We also provided technical assistance
to recipients of Commerce awards regarding the use of rates established by
other federal agencies and their applicability to our awards. Further, we
have worked closely with first-time for-profit recipients of Commerce
awards to establish indirect cost proposals that are acceptable for OIG
review. (Atlanta Regional Office of Audits)

Nonfederal Audit Activities
    In addition to OIG-performed audits, certain of the Department’s
financial assistance programs are sometimes audited by state and local
government auditors and by independent public accountants. OMB
Circular No. A-133, Audits of States, Local Governments, and Non-Profit
Organizations, sets forth the requirements for most of these audits. For-
profit organizations that receive ATP funds from NIST are audited in
accordance with Government Auditing Standards and NIST Program-
Specific Audit Guidelines for ATP Cooperative Agreements, issued by the
Department. (Before June 30, 1996, such audits were subject to the
requirements of Circular A-128, Audits of State and Local Governments,
and the former Circular A-133, Audits of Institutions of Higher Education
and Other Non-Profit Institutions. Some of the audits discussed below
were conducted in accordance with these earlier circulars.)

We examined 380 audit reports during this semiannual period to determine
whether they contained audit findings on any Department programs. For
252 of these reports, the Department acts as cognizant agency and moni-

Commerce OIG Semiannual Report
September 1999
                                                                                              69
Departmental Management


                            tors the auditee’s compliance with the applicable OMB circulars or the
                            NIST program-specific reporting requirements. The other 128 reports are
                            from entities for which other federal agencies have oversight responsibility.

                                                                          ATP
                                                          OMB          Program-
                                                          A-133         Specific
                   Report Category                        Audits         Audits             Total

            Pending (April 1, 1999)                         78             80                158

            Received                                       213             79                292

            Examined                                       282             98                380

            Pending (September 30, 1999)                     9             61                 70


                            The following table shows a breakdown by bureau of the $466 million in
                            Commerce funds audited.


                                          Bureau                                Funds

                                  EDA                                                   $151,458,269

                                  ITA                                                      3,478,582

                                  MBDA                                                     2,204,453
                                                                                                        a
                                  NIST                                                   192,911,760

                                  NOAA                                                    97,225,281

                                  NTIA                                                     4,134,320

                                  NTIS                                                         25,364

                                  Agency not identified                                   14,506,020

                                                   Total                                $465,944,049

                              a
                                  Includes $155,665,077 in ATP program-specific audits.

                                 We identified a total of $1,851,588 in questioned costs. In most
                            reports, the Department’s programs were considered non-major, resulting
                            in limited transaction and compliance testing against laws, regulations, and
                            grant terms and conditions. The 25 reports with Commerce findings are
                            listed in Appendix B-1. (Atlanta Regional Office of Audits)


                                                                       Commerce OIG Semiannual Report
70                                                                                    September 1999
                        Reporting Requirements


                                                        INDEX
            The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
            semiannual reports. The requirements are listed below and indexed to the applicable pages
            of this report.

        Section                                          Topic                                      Page
  4(a)(2)                    Review of Legislation and Regulations                                          72

  5(a)(1)                    Significant Problems, Abuses, and Deficiencies                              17-70

  5(a)(2)                    Significant Recommendations for Corrective Action                           17-70

  5(a)(3)                    Prior Significant Recommendations Unimplemented                                72

  5(a)(4)                    Matters Referred to Prosecutive Authorities                                 17-70

  5(a)(5) and 6(b)(2)        Information or Assistance Refused                                              73

  5(a)(6)                    Listing of Audit Reports                                                    79-84

  5(a)(7)                    Summary of Significant Reports                                              17-70

  5(a)(8)                    Audit Reports—Questioned Costs                                                 77

  5(a)(9)                    Audit Reports—Funds to Be Put to Better Use                                    78

  5(a)(10)                   Prior Audit Reports Unresolved                                              15, 73

  5(a)(11)                   Significant Revised Management Decisions                                    15, 73

  5(a)(12)                   Significant Management Decisions with Which the OIG Disagreed                  74

  The OIG is also required by section 804(b) of the Federal Financial Management Improvement Act of 1996
  to report on instances and reasons when an agency has not met the dates of its remediation plan. We will
  discuss this matter in the March 2000 issue as part of our financial statement audit reporting.




Commerce OIG Semiannual Report                                                                                71
September 1999
Reporting Requirements


                         Section 4(a)(2): Review of Legislation
                         and Regulations
                              This section requires the Inspector General of each agency to review
                         existing and proposed legislation and regulations relating to that agency’s
                         programs and operations. Based on that review, the Inspector General is
                         required to make recommendations in the semiannual report concerning
                         the impact of such legislation or regulations on the economy and efficiency
                         in the administration of programs and operations administered or financed
                         by the agency or on the prevention and detection of fraud and abuse in
                         those programs and operations. Our comments concerning legislative and
                         regulatory initiatives affecting Commerce programs are discussed in
                         appropriate sections of the report.

                         Section 5(a)(3): Prior Significant
                         Recommendations Unimplemented
                             This section requires an identification of each significant
                         recommendation described in previous semiannual reports on which
                         corrective action has not been completed. Section 5(b) requires that the
                         Secretary transmit to the Congress statistical tables for audit reports for
                         which no final action has been taken, plus a statement that includes an
                         explanation of the reasons final action has not been taken on each such
                         audit report, except when the management decision was made within the
                         preceding year.

                              To include a list of all significant unimplemented recommendations in
                         this report would be duplicative, unwieldy, and of limited value to the
                         Congress. Any list would have meaning only if explanations detailed
                         whether adequate progress is being made to implement each agreed-upon
                         corrective action. Also, as this semiannual report is being prepared,
                         management is in the process of updating the Department’s Audit Tracking
                         System as of September 30, 1999, based on semiannual status reports due
                         from the bureaus in mid-October. An accurate database is therefore not
                         available to the OIG for reference here. However, additional information
                         on the status of any audit recommendations may be obtained through the
                         OIG’s Office of Audits.




                                                                    Commerce OIG Semiannual Report
72                                                                                 September 1999
                                                                              Reporting Requirements


Sections 5(a)(5) and 6(b)(2): Information
or Assistance Refused
    These sections require a summary of each report to the Secretary
when access, information, or assistance has been unreasonably refused or
not provided. There were no such instances during this semiannual period,
and no reports to the Secretary.

Section 5(a)(10): Prior Audit Reports Unresolved
    This section requires a summary of each audit report issued before the
beginning of the reporting period for which no management decision has
been made by the end of the reporting period (including the date and title
of each such report), an explanation of the reasons such management
decision has not been made, and a statement concerning the desired
timetable for achieving a management decision on each such report.

    As of September 30, 1999, nine performance audits and one financial
assistance audit were in this category, as discussed below.

Performance Audits

    The nine NOAA unresolved reports address the bureau’s discretionary
funding programs, its light aircraft operations, and NMFS’s laboratory
structure. These reports are discussed on page 54.

Financial Assistance Audit

    The unresolved audit relates to a financial assistance award made by
EDA. A response to the final audit report has been submitted; however,
the OIG is awaiting the submission of an audit resolution proposal.
Additional details are presented on page 23.

Section 5(a)(11): Significant Revised
Management Decisions
    This section requires a description and explanation of the reasons for
any significant revised management decision made during the reporting
period. Department Administrative Order 213-5, Audit Resolution and
Follow-up, provides procedures for revision of a management decision.
For performance audits, the OIG must be consulted and must approve, in
advance, any modification to an audit action plan. For financial assistance
audits, the OIG must concur with any decision that would change the audit
resolution proposal in response to an appeal by the recipient.

Commerce OIG Semiannual Report
September 1999
                                                                                                  73
Reporting Requirements


                             The decisions issued on the four appeals of audit-related debts were
                         finalized with the full participation and concurrence of the OIG.

                         Section 5(a)(12): Significant Management
                         Decisions with Which the OIG Disagreed
                            This section requires information concerning any significant
                         management decision with which the Inspector General is in disagreement.

                             Department Administrative Order 213-5 provides procedures for the
                         elevation of unresolved audit recommendations to higher levels of
                         Department and OIG management, including an Audit Resolution Council.
                         During this period, no audit issues were referred to the Council.




                                                                   Commerce OIG Semiannual Report
74                                                                                September 1999
                            Statistical Highlights

                               Audit
                      Statistical Highlights
 Questioned costs this period ...........................................           $1,851,588

 Value of audit recommendations made
 this period that funds be put to better use ........................                  $654,904

 Value of audit recommendations agreed
 to this period by management .........................................             $5,345,445




                                                    Investigative
                                                Statistical Highlights
                        Arrests ............................................................................................. 1
                        Indictments and informations............................................................. 1
                        Convictions ....................................................................................... 3
                        Personnel actions* ............................................................................ 1
                        Fines, restitutions, judgments, and other civil
                        and administrative recoveries ................................................                 $25,178
                          * Includes removals, suspensions, reprimands, demotions, reassignments, and resignations
                            or retirements in lieu of adverse action.




                                                                        Allegations Processed
                                                                         by OIG Investigators
                                                                                 Accepted for investigation ........................................ 28
                                                                                 Referred to operating units ...................................... 30
                                                                                 Evaluated but not accepted for
                                                                                 investigation or referral ............................................ 62
                                                                                 Total ........................................................................ 120
                                                                                 Note: Numerous other allegations and complaints were forwarded
                                                                                 to the appropriate federal and nonfederal investigative agencies.

                                                                                           OIG HOTLINE
                                                                Telephone:              (202) 482-2495 or (800) 424-5197
                                                                Internet E-Mail:        oighotline@doc.gov




Commerce OIG Semiannual Report
September 1999
                                                                                                                                                                      75
                                         Tables and Appendixes


 TABLES                                                                                                          PAGE

 1. Audits with Questioned Costs                                                                                    77

 2. Audits with Recommendations That Funds Be Put to Better Use                                                     78


 APPENDIXES
 A. Office of Inspector General Reports                                                                             79

     A-1. Performance Audits                                                                                        79

     A-2. Inspections                                                                                               81

     A-3. Financial Statements Audits                                                                               82

     A-4. Financial Assistance Audits                                                                               82

 B. Processed Reports                                                                                               83

     B-1. Processed Financial-Related Audits                                                                        83


 DEFINITIONS
 The term questioned cost refers to a cost that is questioned by the OIG because of (1) an alleged violation of a
 provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
 expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation;
 or (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

 The term unsupported cost refers to a cost that, at the time of the audit, is not supported by adequate documentation.
 Questioned costs include unsupported costs.

 The term recommendation that funds be put to better use refers to a recommendation by the OIG that funds could
 be used more efficiently if Commerce management took action to implement and complete the recommendation,
 including (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest
 subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended
 improvements related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures identified in
 preaward reviews of contracts or grant agreements; or (6) any other savings that are specifically identified.

 The term management decision refers to management’s evaluation of the findings and recommendations included in
 the audit report and the issuance of a final decision by management concerning its response.




                                                                                        Commerce OIG Semiannual Report
76                                                                                                     September 1999
                                                                                    Tables and Appendixes



   Table 1: Audits with Questioned Costs
                                                                                         Questioned         Unsupported
   Report Category                                                       Number            Costs               Costs
   A. Reports for which no management decision had been
      made by the commencement of the reporting period                       21            $4,369,565            $2,369,712


   B. Reports issued during the reporting period                             17              1,851,588              981,865

   C. Total reports (A+B) requiring a management decision
   C. during the reporting period                                            38              6,221,153            3,351,577

   C. Reports for which a management decision was made
   C. during the reporting period                                            21              4,182,693            2,182,840


      ii. Value of disallowed costs                                                          1,698,881              798,898


      ii. Value of costs not disallowed                                                      2,483,812            1,383,942

   D. Reports for which no management decision had been
   D. made by the end of the reporting period                                17            $2,038,460            $1,168,737

      Notes and Explanations:
      In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
      than the original recommendations.
      One audit report included in this table is also included in the reports with recommendations that funds be
      put to better use (see Table 2). However, the dollar amounts do not overlap.




Commerce OIG Semiannual Report
September 1999
                                                                                                                            77
Tables and Appendixes



 Table 2: Audits with Recommendations
 Table 2: That Funds Be Put to Better Use

 Report Category                                                                          Number                Value

 A. Reports for which no management decision had been made by the
 A. commencement of the reporting period                                                       5              $22,031,004


 B. Reports issued during the reporting period                                                 1                   654,904

 C. Total reports (A+B) requiring a management decision during the
 B. reporting period                                                                           6                22,685,908

 C. Reports for which a management decision was made during the
 C. reporting period                                                                           3                 4,054,004


     ii. Value of recommendations agreed to by management                                                        3,646,564


     ii. Value of recommendations not agreed to by management                                                      409,270

 D. Reports for which no management decision had been made by the
 D. end of the reporting period                                                                3              $18,631,904

     Notes and Explanations:
     In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
     than the original recommendations.
     One audit report included in this table is also included in the reports with questioned costs (see Table 1). However,
     the dollar amounts do not overlap.




                                                                                         Commerce OIG Semiannual Report
78                                                                                                      September 1999
                                                                           Tables and Appendixes



   Appendix A. Office of Inspector General Reports
                                      Type                                             Number    Appendix
  Performance Audits                                                                     16          A-1

  Inspections                                                                            10          A-2

  Financial Statements Audits                                                            1           A-3

  Financial Assistance Audits                                                            2           A-4

  Total                                                                                  29




   Appendix A-1. Performance Audits
                                                                                                  Funds to
                                                                                                 Be Put to
   Agency                           Subject                             Number           Date    Better Use
     EDA        Research and Evaluation Program Funding             BTD-11548-9-0001     09/99             —
                Decisions Should Be Documented, CFDA No.
                11.312

     ESA        Dress Rehearsal Quality Check Survey Experience     ESD-11449-9-0001     09/99             —
                Indicates Improvements Needed for 2000 Decennial

                Public Awareness Campaign Is Meeting Program        ESD-11755-9-0001     09/99             —
                Objectives

      ITA       U.S. and Foreign Commercial Service Is Addressing   BTD-10829-9-0001     09/99             —
                Foreign Service Personnel Management Issues

                Special American Business Internship Training       ATL-10998-9-0001     09/99             —
                Program Award Process Corrected to Ensure
                Independent Review Panels, CFDA No. 11.114

    NOAA        Planned Consolidation at Norman, Oklahoma,          STD-10900-9-0001     09/99             —
                Needs Refinement

                NMFS’s Fisheries Development and Utilization        STL-10950-9-0001     09/99             —
                Research and Development Grants and Cooperative
                Agreements Program Awards Were Merit-Based,
                CFDA No. 11.427

                NWS’s Meteorologic and Hydrologic Modernization     ATL-11405-9-0001     09/99             —
                Development Program Awards Were Not
                Competitively Selected, CFDA No. 11.467




Commerce OIG Semiannual Report
September 1999
                                                                                                           79
Tables and Appendixes



 Appendix A-1. Performance Audits — Continued
                                                                                                  Funds to
                                                                                                 Be Put to
     Agency                          Subject                             Number         Date     Better Use
   NOAA        NMFS’s Fishermen’s Contingency Fund Should Be         STD-11484-9-0001   08/99              —
 (continued)   Reexamined

               NMFS’s Marine Fisheries Initiative Program            ATL-11655-9-0001   09/99              —
               Promotes Merit-Based Decisions, but Process
               Needs More Discipline, CFDA No. 11.433

               Internal Controls Over MASC’s Bankcard Program        DEN-11927-9-0001   09/99              —
               Need Improvement

      NTIA     Internal Controls over Bankcard Use Are Sound         BTD-11549-9-0001   09/99              —

      O/S      Audit Survey of the Department of Commerce            STD-11600-9-0001   07/99              —
               Natural Disaster Reduction Initiative

               Current DOC Postsecondary Internship Program          BTD-11822-9-0001   09/99              —
               Award Process Promotes Merit-Based Decisions,
               CFDA No. 11.702

      PTO      Office of Patent Publications: High Inventory, Late   BTD-10996-9-0001   09/99              —
               Patent Deliveries, and Patent Printing Issues Must
               Be Addressed

     TA-NIST   State Technology Extension Program Award              DEN-10961-9-0001   09/99              —
               Process Designed to Promote Merit-Based
               Decisions, but Process Needs More Discipline,
               CFDA No. 11.613




                                                                                 Commerce OIG Semiannual Report
80                                                                                              September 1999
                                                                     Tables and Appendixes



   Appendix A-2. Inspections

                                                                                        Funds to
                                                                                       Be Put to
   Agency                            Subject                       Number      Date    Better Use
      BXA      Improvements Are Needed to Meet the Export          IPE-11488   06/99           —
               Licensing Requirements of the 21st Century

      ESA      Improvements Needed in Multiple Response            OSE-10711   09/99           —
               Resolution to Ensure Accurate, Timely Processing
               for the 2000 Decennial Census

               Method for Archiving 2000 Decennial Data and        OSE-10758   09/99           —
               Procedures for Disposing of Questionnaires Should
               Be Finalized

      ITA      US&FCS China Is Meeting the Demands of Its          IPE-10915   09/99           —
               Clients, but Internal Operations Need Attention

               US&FCS Brazil: Improvements Needed in Program       IPE-10916   09/99           —
               Management and Internal Controls

               US&FCS South Africa Is Building An Effective        IPE-11433   09/99           —
               Program, but Administrative Operations Need
               Improvement

     NOAA      NESDIS Y2K Risks Are Low, but Improvements Are      OSE-12199   09/99           —
               Needed

      PTO      Year 2000 Renovations and Test Program Are          OSE-11693   09/99           —
               Effective, but Agency Should Freeze Changes and
               Verify Inventory

               PTO Has Improved Its Management of Interagency      IPE-10728   09/99           —
               Agreements

    TA-NTIS    Management over Interagency and Other Special       IPE-11021   06/99           —
               Agreements Requires Further Improvement




Commerce OIG Semiannual Report
September 1999
                                                                                                81
Tables and Appendixes



  Appendix A-3. Financial Statements Audits
                                                                                                                                            Funds to
                                                                                                                                           Be Put to
     Agency                                       Subject                                            Number                  Date          Better Use
       O/S            Fiscal Year 1998 Consolidated Financial                                 FSD-10899-9-0002                06/99                    —
                      Statements, Federal Agencies Centralized Trial-
                      Balance System Data Verification Agreed-Upon
                      Procedures




  Appendix A-4. Financial Assistance Audits
                                                                                                                    Funds to
                                                                                             Questioned Unsupported Be Put to
     Agency                      Auditee                         Number                 Date   Costs       Costs    Better Use
      EDA             Grand Forks Growth                    DEN-11625-9-0001 09/99                               —                    —                —
                      Fund, ND

      NOAA            AquaFuture, Inc., MA                  ATL-10729-9-0001            07/99                    —                    —          $654,904

 Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




                                                                                                                 Commerce OIG Semiannual Report
82                                                                                                                              September 1999
                                                                                                           Tables and Appendixes



                      Appendix B. Processed Reports
                     The Office of Inspector General reviewed and accepted 380 financial-related audit reports
                     prepared by independent public accountants and local, state, and other federal auditors.
                     The reports processed with questioned costs, recommendations that funds be put to better
                     use, and/or nonfinancial recommendations are listed in Appendix B-1.

                                                            Agency                                                       Audits

                     Economic Development Administration                                                                    166

                     International Trade Administration                                                                         2

                     Minority Business Development Agency                                                                       5

                     National Institute of Standards and Technology                                                         112 *

                     National Oceanic and Atmospheric Administration                                                          12

                     National Telecommunications and Information Administration                                                 6

                     Multi-Agency                                                                                             43

                     Agency Not Identified                                                                                    34

                     Total                                                                                                  380

                     * Includes 98 ATP program-specific audits.




   Appendix B-1. Processed Financial-Related Audits
                                                                                                                      Funds to
                                                                                               Questioned Unsupported Be Put to
    Agency                          Auditee                           Number              Date   Costs       Costs    Better Use
       EDA             American Samoa Government                 ATL-9999-9-0031 04/99                    $42,000                      —                —

                       Idaho Innovation Center, Inc.             ATL-9999-9-1261 07/99                     30,709                      —                —

                       Replication and Program                   ATL-9999-9-1298 07/99                            —                    —                —
                       Stategies, Inc., PA

                       City of Gary, IN                          ATL-9999-9-1386 07/99                     38,818                      —                —

                       City of Rockford, IL                      ATL-9999-9-1212 08/99                            —                    —                —

  Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




Commerce OIG Semiannual Report
September 1999
                                                                                                                                                        83
Tables and Appendixes



  Appendix B-1. Processed Financial-Related Audits — Continued
                                                                                                                     Funds to
                                                                                              Questioned Unsupported Be Put to
     Agency                        Auditee                           Number              Date   Costs       Costs    Better Use
     EDA              Lake City Development                     ATL-9999-9-1421 08/99                  $195,093                       —                —
  (continued)         Corporation, SC

                      Idaho Innovation Center, Inc.             ATL-9999-9-1480 08/99                            —                    —                —

                      Lehigh University, PA                     ATL-9999-9-1498 08/99                            —                    —                —

                      City of Renville, MN                      ATL-9999-9-1266 09/99                            —                    —                —

                      City of Ely, NV                           ATL-9999-9-1506 09/99                    264,585             $264,585                  —

                      City of Pahokee, FL                       ATL-9999-9-1517 09/99                            —                    —                —

                      City of Moss Point, MS                    ATL-9999-9-1531 09/99                    116,460                      —                —

     MBDA             All Indian Pueblo Council, Inc.,          ATL-9999-9-1344 04/99                       7,257                 7,257                —
                      NM

                      City of Williamsport, PA                  ATL-9999-9-1321 08/99                            —                    —                —

     NOAA             American Samoa Government                 ATL-9999-9-1031 04/99                     15,000                      —                —

                      American Samoa Government                 ATL-9999-9-1032 04/99                    177,374                      —                —

                      American Samoa Government                 ATL-9999-9-1278 04/99                     52,675                      —                —

                      Commonwealth of                           ATL-9999-9-1389 07/99                     37,584                37,584                 —
                      Massachusetts

                      State of Alaska                           ATL-9999-9-1200 09/99                       4,160                 4,160                —

     TA-NIST          Minnesota Technology, Inc.                ATL-9999-9-1222 07/99                    103,045                  2,446                —

                      Lucent Technologies, NJ                   ATL-9999-9-0110 08/99                    659,812               645,882                 —

                      Chevron Research and                      ATL-9999-9-0127 08/99                     19,951                19,951                 —
                      Technology Center, CA

                      Wisconsin Center for            ATL-9999-9-1116 08/99                                      —                    —                —
                      Manufacturing and Productivity,
                      Inc.

                      Colorlink, Inc., CO                       ATL-9999-9-0038 09/99                     67,941                      —                —

                      Missouri Incutech Foundation              ATL-9999-9-1520 09/99                     19,124                      —                —

 Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




                                                                                                                 Commerce OIG Semiannual Report
84                                                                                                                              September 1999
Definitions of Types of OIG Reviews
and Financial Statements Audit Terms


                                               OIG Reviews
  Audits                                                    Inspections
  Performance Audits — These audits look at the             Operational Inspections — These are reviews of
  efficiency, effectiveness, and economy of the             an activity, unit, or office, or a contractor or
  Department’s programs, activities, and information        organization that receives funds from the
  technology systems. They may check a unit’s               Department. They focus on an organization, not a
  compliance with laws and regulations, and evaluate        whole program, and are designed to give agency
  its success in achieving program objectives.              managers timely information about operations,
                                                            including current and foreseeable problems.
  Financial-Related Audits — These audits review
  the Department’s contracts, grants, cooperative           Program Evaluations — These are in-depth
  agreements, loans, and loan guaranties. They assess       reviews of specific management issues, policies, or
  compliance with laws, regulations, and award terms;       programs.
  adequacy of accounting systems and internal con-
                                                            Systems Evaluations — These are reviews of
  trols; allowance of costs; and the degree to which a
                                                            system development, acquisitions, operations, and
  project achieved the intended results.
                                                            policy in order to improve efficiency and
  Financial Statements Audits — The CFO Act, as             effectiveness. They focus on Department-wide
  amended by Government Management Reform Act,              computer systems and other technologies and
  requires federal agencies to prepare annual financial     address all project phases, including business
  statements and to subject them to audit. The OIG is       process reengineering, system definition, system
  responsible for conducting these audits and reporting     development, deployment, operations, and
  the results to the Secretary.                             maintenance.


                      Financial Statements Audit Terms
  Overview — This required component of financial           Unqualified Opinion — The financial statements
  statements is to provide a clear, concise description     present fairly, in all material aspects, the entity’s
  of the entity’s programs, activities, and results. It     financial position and results of operations.
  contains the entity’s performance measures and
                                                            Qualified Opinion — Except for the effects of the
  serves as a link between the statements and the
                                                            matter(s) to which the qualification relates, the
  requirements of GPRA.
                                                            financial statements present fairly, in all material
  Trend Analysis — This analysis of performance             respects, the entity’s financial position and results of
  data from multiple years allows conclusions to be         operations.
  drawn about an entity’s progress over time in
                                                            Adverse Opinion — The financial statements do
  improving its results. To facilitate this analysis, the
                                                            not present fairly the entity’s financial position or
  entity should present data from several prior years,
                                                            results of operations.
  projected data for the following year, and a
  comparison of actual versus targeted performance.         Disclaimer of Opinion — The auditor does not
                                                            express an opinion on the financial statements.


Commerce OIG Semiannual Report
September 1999
                                                                                                                       85
                                                        Glossary of Abbreviations

AFOS ................................................................................................. Automation of Field Operations and Services
ATP ....................................................................................................................... Advanced Technology Program
AWIPS ........................................................................................ Advanced Weather Interactive Processing System
BCCP ...................................................................................................... business continuity and contingency plan
BXA .................................................................................................................... Bureau of Export Administration
CAMS ............................................................................................Commerce Administrative Management System
CFO .................................................................................................................................... Chief Financial Officer
DCS 2000 .....................................................................................................................Data Capture System 2000
EDA........................................................................................................... Economic Development Administration
ESA .......................................................................................................... Economics and Statistics Administration
Ex-Im Bank ............................................................................................................................. Export-Import Bank
GAO ............................................................................................................................. General Accounting Office
GDP ................................................................................................................................... gross domestic product
GPO ........................................................................................................................... Government Printing Office
GPRA ................................................................................................... Government Performance and Results Act
GSA ...................................................................................................................... General Services Administration
IG ...............................................................................................................................................Inspector General
IT ....................................................................................................................................... information technology
ITA .................................................................................................................... International Trade Administration
MBDA ...................................................................................................... Minority Business Development Agency
MRR ............................................................................................................................multiple response resolution
NESDIS .................................................................National Environmental Satellite, Data, and Information Service
NIST ...............................................................................................National Institute of Standards and Technology
NMFS ................................................................................................................. National Marine Fisheries Service
NOAA ........................................................................................ National Oceanic and Atmospheric Administration
NTIA ........................................................................ National Telecommunications and Information Administration
NTIS .......................................................................................................... National Technical Information Service
NWS ............................................................................................................................... National Weather Service
OEBAM ....................................................................... Office of Executive Budgeting and Assistance Management
OIG ............................................................................................................................. Office of Inspector General
OMB................................................................................................................. Office of Management and Budget
OPP ........................................................................................................................... Office of Patent Publications
OSF ............................................................................................................................ Operational Support Facility
PTO .......................................................................................................................... Patent and Trademark Office
RLF ......................................................................................................................................... revolving loan fund
SABIT ............................................................................................. Special American Business Internship Training
SBA ......................................................................................................................... Small Business Administration
TA ................................................................................................................................ Technology Administration
US&FCS ...................................................................................................... U.S. and Foreign Commercial Service
USEAC ....................................................................................................................U.S. Export Assistance Center
Y2K ....................................................................................................................................................... year 2000




                                                                                                                      Commerce OIG Semiannual Report
86                                                                                                                                   September 1999
                                Office of Inspector General
                                    Organization Chart

                                                                       Inspector
                Office of                                               General                                                Office of
             Compliance and
                                                                       Deputy                                                  Counsel
             Administration
                                                                  Inspector General

               Office of
                                                                                                                            Office of
           Inspections and
                                                                                                                       Systems Evaluation
         Program Evaluations



                              Office of                                                                           Office of
                               Audits                                                                          Investigations



Headquarters           Financial Statements                Regional                  Financial Fraud                Investigative         Special Activities
   Audits                     Audits                        Audits                        Unit                       Operations               Section

   Business                    Financial                     Atlanta                                                Washington
   and Trade              Statements Audits                 Regional                                                  Field
    Audits                    Preparation                    Office                                                 Operations
  Economics                   Financial                      Denver                                                 Silver Spring
 and Statistics            and Performance                  Regional                                                    Field
    Audits                     Analysis                      Office                                                 Operations
   Science                                                  Seattle                                                   Denver
                                  EDP
and Technology                                             Regional                                                    Field
                                 Audits
    Audits                                                  Office                                                   Operations




                                                  OIG Points of Contact
Inspector General .....................................(202) 482-4661          Office of Counsel ......................................(202) 482-5992
Congressional/PCIE Liaison.....................(202) 482-3052                  Office of Inspections and Program Eval. ..(202) 482-2754
Office of Audits .........................................(202) 482-1934       Office of Investigations .............................(202) 482-0934
Office of Compliance and Admin. .............(202) 482-0231                    Office of Systems Evaluation ...................(202) 482-6186
                                           TDD Number .................................... (202) 482-4948
                                           Media Inquiries .................................. (202) 482-5992
                                           REQUESTS FOR REPORTS:
                                           Telephone .......................................... (202) 482-0231
                                           Internet E-Mail ................................... oigreports@doc.gov
                                           OIG HOTLINE:
                                           Telephone .......................................... (202) 482-2495 or (800) 424-5197
                                           Internet E-Mail ................................... oighotline@doc.gov

                                                          OIG Internet Home Page
                                                http://www.oig.doc.gov
